<html>
<title> - PENDING BENEFITS-RELATED LEGISLATION</title>
<body><pre>[Senate Hearing 109-243]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-243
 
                  PENDING BENEFITS-RELATED LEGISLATION

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON VETERANS' AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             JUNE 23, 2005

                               __________

       Printed for the use of the Committee on Veterans' Affairs


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate



                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
24-470                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON VETERANS' AFFAIRS

                      LARRY CRAIG, Idaho, Chairman
ARLEN SPECTER, Pennsylvania          DANIEL K. AKAKA, Ranking Member, 
KAY BAILEY HUTCHISON, Texas              Hawaii
LINDSEY O. GRAHAM, South Carolina    JOHN D. ROCKEFELLER IV, West 
RICHARD BURR, North Carolina             Virginia
JOHN ENSIGN, Nevada                  JAMES M. JEFFORDS, (I) Vermont
JOHN THUNE, South Dakota             PATTY MURRAY, Washington
JOHNNY ISAKSON, Georgia              BARACK OBAMA, Illinois
                                     KEN SALAZAR, Colorado
                  Lupe Wissel, Majority Staff Director
               D. Noelani Kalipi, Minority Staff Director


                            C O N T E N T S

                              ----------                              

                             JUNE 23, 2005
                                SENATORS

                                                                   Page
Craig, Hon. Larry, Chairman, U.S. Senator from Idaho.............     1
Akaka, Hon. Daniel K., U.S. Senator from Hawaii..................     3
Murray, Hon. Patty, Ranking Member, U.S. Senator from Washington.     4
Salazar, Hon. Ken, U.S. Senator from Colorado....................     5
    Prepared statement...........................................     6
Allard, Hon. Wayne, U.S. Senator from Colorado...................     8
    Prepared statement...........................................     9
Pryor, Hon. Mark, U.S. Senator from Arkansas.....................    10
    Prepared statement...........................................    11
    News articles submitted for the record.......................    12
Thune, Hon. John, U.S. Senator from South Dakota.................    55

                               WITNESSES

Cooper, Hon. Daniel L., Under Secretary for Benefits, U.S. 
  Department of Veterans Affairs; accompanied by Richard 
  Wannemacher, Jr., Acting Under Secretary for Memorial Affairs 
  and John H. Thompson, Deputy General Counsel...................    15
    Prepared statement...........................................    17
    Addendum to prepared statement...............................    21
Smithson, Steve, Deputy Director, Veterans Affairs and 
  Rehabilitation, the American Legion............................    31
    Prepared statement...........................................    32
    Addendum to prepared statement...............................    35
Kinderman, Quentin, Deputy Director, National Legislative 
  Service, Veterans of Foreign Wars of the United States.........    36
    Prepared statement...........................................    37
Surratt, Rick, Deputy National Legislative Director, Disabled 
  American Veterans..............................................    39
    Prepared statement...........................................    40
Blake, Carl, Associate National Legislative Director, Paralyzed 
  Veterans of America............................................    44
    Prepared statement...........................................    45
Jones, Richard, National Legislative Director, AMVETS............    48
    Prepared statement...........................................    49

                                APPENDIX

Hefley, Hon. Joel, U.S. Representative from Colorado, prepared 
  statement......................................................    57
Mortgage Bankers Association, prepared statement.................    58
Letter of support from Mortgage Bankers Association, National 
  Association of Home Builders, National Association of Realtors.    60


                  PENDING BENEFITS-RELATED LEGISLATION

                              ----------                              


                        THURSDAY, JUNE 23, 2005

                               U.S. Senate,
                    Committee on Veterans' Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:15 a.m., in 
room SR-418, Russell Senate Office Building, Hon. Larry E. 
Craig (Chairman of the Committee) presiding.
    Present: Senators Craig, Thune, Akaka, Rockefeller, Murray, 
and Salazar.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
                    U.S. SENATOR FROM IDAHO

    Chairman Craig. Good morning, everyone, and welcome to the 
Senate Veterans' Affairs Committee. Today the Committee meets, 
for the second time this month, to receive testimony on pending 
legislation. Two weeks ago, we heard testimony on health care 
legislation; today we hear testimony on benefits related 
legislation.
    The veterans service organizations which appeared at our 
last hearing are again with us this morning. So is the VA. 
Today, representing the VA is Under Secretary for Benefits, 
Admiral Dan Cooper. We thank you all very much for being with 
us this morning.
    We have 12 bills that we will consider today--for the sake 
of the audience--not all of them in total detail. It is an 
eclectic assortment of legislation touching on veterans 
insurance, housing, burial, compensation, and employee 
benefits. Some of the bills were only recently added to the 
agenda, and I invite our witnesses to submit supplemental 
testimony on these late additions, if that is necessary.
    The Committee will mark up health and benefits legislation 
in mid-July, so a full accounting from our witnesses on all of 
the bills on today's agenda within the next 2 weeks would be 
extremely valuable to the Committee as we sort through and 
begin our work.
    Before I continue, I want to make a few comments about the 
purpose of this hearing and its relation to the Committee's 
July markup. Congressional budget rules require us to pay for 
any new veterans entitlement spending through offsets in other 
veterans programs. Under that stricture, some of the bills on 
today's agenda will, without question, be difficult to advance 
at the markup. I do not want to create the false impression 
that because the bills appear on the agenda for a legislative 
hearing, that they automatically will be on the Committee's 
markup agenda. But I do believe that our colleagues who are 
sincere in offering them have an opportunity and should have 
that opportunity to have them heard. That is not necessarily 
the case in all situations.
    With that said, I feel it is important to explore the merit 
of legislation hearings like this one and to identify, if 
possible, the offsets. So that is important, I think, as we 
build committee record.
    With that bit of housekeeping taken care of, I now will 
offer some brief comments on two bills that I have introduced, 
S. 1234 and S. 1235.
    S. 1234 would provide a cost-of-living adjustment to the 
rates compensation provided to over 2.6 million disabled 
veterans and over 330,000 survivors. The end-of-year 
adjustments are expected to be 2.3 percent, and it would result 
in a total estimated payout of $400 million. Because of the 
importance of these annual cost-of-living adjustments and the 
impact they have on our lives, the Congressional budget rules 
require no offsets in spending to pay for them.
    I now turn to S. 1235, a bill that would make permanent the 
enhancement to the Servicemembers' Group Life Insurance, SGLI, 
program contained in the Emergency Supplemental Appropriation 
Act enacted over a month ago. Those enhancements will expire at 
the end of the fiscal year, so it is incumbent upon this 
committee, the committee of jurisdiction, to act. Accordingly, 
my legislation would increase the minimum of SGLI coverage from 
$250,000 to $400,000, would allow servicemembers to elect to 
reduce their coverage in $50,000 increments, and would require 
notification to spouses of servicemembers when an election to 
reduce coverage or change beneficiaries is made.
    S. 1235 would also extend from 1 to 2 years the period 
within which totally disabled servicemembers may apply to 
convert their SGLI coverage to Veterans' Group Life Insurance, 
VGLI, coverage upon discharge. Taking advantage of this 
conversion option is critical for seriously disabled veterans, 
many of whom may not be able to purchase commercial insurance 
coverage at affordable rates because of their disability. I 
have learned that less than half of those eligible to convert 
now do so. This is understandable in that their immediate focus 
after service is likely to be their rehabilitation needs and 
not long-term financial planning. My legislation would give 
them the extra time they might require to take this prudent 
step to secure their families' futures.
    Finally, S. 1235 would build some additional flexibility in 
VA's Home Loan Guaranty program. VA may now guarantee so-called 
hybrid adjustable rate meetings, or ARM loans, as we know them. 
These are loans that have a fixed period of interest between 3 
to 10 years and an annual interest rate adjustment rate 
thereafter. To protect veterans against wild swings in interest 
rates during the annual adjustment period, caps on annual 
adjustments were placed into law. One of those caps, I have 
learned, is too restrictive, so much so that lenders may be 
unwilling to make hybrid ARM loans to veterans or, if they are 
willing, charge veterans higher-than-normal interest rates. My 
legislation gives VA the flexibility it needs to modify rate-
adjustment caps so that they conform to the industry standards.
    As I mentioned earlier, we have a large slate of bills on 
the agenda, so I will stop with that. My colleague and Ranking 
Member has just arrived--Are you prepared to make comment now?
    Senator Akaka. Thank you.
    Chairman Craig. He is prepared to make comment now, so I'll 
turn to Danny.

          OPENING STATEMENT OF HON. DANIEL K. AKAKA, 
                    U.S. SENATOR FROM HAWAII

    Senator Akaka. Thank you, Mr. Chairman, for scheduling 
today's hearing on benefits legislation that is pending before 
this Committee. I note that this is the second legislative 
hearing this month, with one earlier on pending health care 
legislation. I felt the last hearing was really productive, Mr. 
Chairman, and it is my most sincere hope that we can continue 
the work that this Committee has done thus far for this 
session.
    Mr. Chairman, we have a full schedule ahead of us today, so 
I will take this time to briefly explain my legislative 
priorities.
    In 1992, I sponsored legislation that established a pilot 
program that provides Native American veterans with assistance 
in purchasing, constructing, and improving homes. This program 
allows our Native American veterans, who have served our Nation 
so honorably, and their families to be part of the American 
dream of home ownership. Through January of this year, 443 
loans were created under this program.
    The rate of home ownership among Native Americans is about 
half the rate of the general U.S. population. This issue 
partially stems from the fact that lenders generally require 
that loan applicants own the parcel of land on which their 
homes will be located. This is difficult for many in Indian 
country, in Alaska, and Hawaii, because their homes are on 
Trust lands. Most lenders decline these loan applications 
because Federal law prohibits a lender from taking possession 
of Native Trust lands in the event of a default. This is why 
this program is so important. It makes home ownership on Trust 
lands accessible for Native American veterans.
    This pilot program has been extended several times. It is 
considered to be a saver by CBO and will continue to be a saver 
for the foreseeable future. It is time to make the Native 
American Veteran Housing Loan program permanent this year.
    Last session, the law that allowed severely disabled 
members of the armed forces to receive specially adapted 
housing grants from the Department of Veterans' Affairs while 
still on duty was inadvertently repealed. This was an oversight 
that occurred when the law authorizing the Secretary of 
Veterans' Affairs to provide specially adapted housing for 
veterans whose disability is the result of the loss, or loss of 
use, of both upper arms above the elbow was modified. My bill 
would again provide the adapted housing benefit to disabled 
servicemembers in need of accommodations as they return to 
their homes.
    The Disabled Veterans Insurance Improvement Act of 2005 
would increase the amount of supplemental life insurance 
available to totally disabled veterans from $20,000 to $40,000. 
VA's Service Disabled Veterans Insurance program was 
established back in 1951 to provide life insurance for veterans 
with service-connected disabilities. The basic death benefit in 
1951 was $10,000 and has not been increased since that time. 
Since 1992, totally disabled veterans have been eligible for 
$20,000 in supplemental coverage. Currently, 43 percent of the 
veterans enrolled in the SDVI program are considered totally 
disabled and have been deemed, and I quote, ``unable to find 
substantially gainful employment.'' About a fourth of these 
veterans have supplemental insurance coverage. These veterans 
find it difficult to obtain commercial life insurance policies. 
It is these veterans that we are trying to help.
    I thank the witnesses from VA for coming today to share the 
Department's views. I would especially like to thank the VSO 
panel. You work with veterans on a daily basis and know how 
veterans are feeling and what their needs are. We appreciate 
your comments. I want to thank our colleagues also and look 
forward to their testimony.
    Thank you, Mr. Chairman.
    Chairman Craig. Senator Akaka, thank you very much.
    Before we turn to our colleagues who are here to give 
testimony on their legislation today, let me turn to the 
Members of the Committee, Senator Murray, Senator Salazar. 
Patty, do you have any opening comments you would like to make?

   OPENING STATEMENT OF HON. PATTY MURRAY, U.S. SENATOR FROM 
                           WASHINGTON

    Senator Murray. I do. Thank you very much, Mr. Chairman, 
and thank you and Senator Akaka for holding today's hearing. I 
want to thank all of our panelists who will be joining us as 
well as our colleagues who have proposed legislation as well.
    Mr. Chairman, I really share my colleague's concerns 
regarding the need for fair treatment for veterans within the 
VBA system, and I support many of the proposals that are before 
us today. Especially, I want to acknowledge Ranking Member 
Akaka's bill to make permanent the Native American Home Loan 
program. I am very proud to represent a number of tribal 
veterans in my State of Washington, and I support efforts to 
help make the Native American Home Loan program permanent.
    I also want to take this opportunity to express my support 
for legislation from both Chairman Craig and Ranking Member 
Akaka that would increase insurance benefits for our veterans.
    In addition, I just wanted to mention that I have a piece 
of legislation before the Committee today as well, the Prisoner 
of War Benefits Act of 2005. This is a bill that will correct a 
really glaring injustice that faces some of our former American 
prisoners of war and will reaffirm our commitment to all those 
Americans who are held in captivity while fighting for our 
freedom. We know that those who have been prisoners of war 
often suffer medical problems many years later as a result of 
their captivity under inhumane conditions, and unfortunately, 
it took a long time for many of our former POWs to get the help 
they need and deserve.
    Back in 1981, Congress began to address this problem by 
establishing certain medical conditions as presumptive for 
POWs, but it did require a very high level of research 
certainty--95 percent, in fact--before veterans could get the 
benefits based on medical problems. So as a result, a lot of 
the health problems common in POWs were, and really still are, 
denied coverage. Congress and this Committee have in fact taken 
some steps to fix this, but there are still some barriers that 
need to be addressed.
    My bill, S. 1271, would add four additional medical 
conditions to the presumptive list and it would eliminate the 
minimum time of internment required for former POWs to qualify 
for some of the benefits and would establish a system for the 
VA to work with the Advisory Committee on Former Prisoners of 
War to decide whether certain medical conditions should be 
added or removed from the list of presumptives for former POWs.
    This legislation is companion to legislation that has been 
introduced in the House of Representatives. Here in the Senate, 
my bill is endorsed by the American Ex-Prisoners of War. This 
bill is a follow-up to similar legislation of mine from 2003, 
the Francis Agnes Ex-Prisoner of War Benefits Act. That was a 
bill that was named after a very good friend of mine. He 
survived as a prisoner of war for 3\1/2\ years. He was a 
survivor of the Bataan Death March and two POW camps in the 
Philippines, and he lived a life of service to his family and 
his fellow veterans and to his community.
    In all the time Fran and I spent together, he never asked 
me to do anything for him. He was always concerned about other 
veterans and their families. He was asking to help the widows. 
He asked me to support POWs' lawsuit against the Japanese 
companies that profited from slave labor during World War II. 
He was always asking me for help for another veteran. When we 
lost Fran on February 9, 2003, I lost a good friend, but this 
country lost a very selfless man.
    So passing S. 1271, I think, would be a very fitting 
tribute to Fran and all the other thousands of veterans who 
have endured as prisoners of war and sacrificed for our liberty 
and our freedom, and I think it's right to do for those who 
have sacrificed their liberty to protect our country.
    So I look forward, Mr. Chairman, to hearing the views of 
the VA and the VSO's on this bill and other legislation before 
us. Again, I congratulate my colleagues who have also 
introduced legislation today.
    Chairman Craig. Senator Murray, thank you very much.
    Senator Salazar, Ken.

   OPENING STATEMENT OF HON. KEN SALAZAR, U.S. SENATOR FROM 
                            COLORADO

    Senator Salazar. Thank you very much, Chairman Craig and 
Senator Akaka, for holding this hearing today. I also want to 
thank my colleague Senator Allard from Colorado for the bill 
that he will be testifying on, which I am co-sponsoring and 
believe is a very good bill for Colorado and for our veterans.
    Also welcome to our Committee, Senator Pryor.
    Today, we will be discussing a bill that I have been 
working on with Senator Allard to establish a cemetery in 
Colorado Springs, part of the Pike's Peak region of Colorado. 
Pike's Peak has one of the largest per capita veterans 
populations in the Nation. More than 105,000 veterans and more 
than 30,000 active duty members call the area home. Despite 
this, the nearest veteran's cemetery is in Fort Logan, which is 
a 75-mile trip from Colorado Springs to Denver.
    There are few parts of the country that are friendlier to 
the military and to veterans than Pike's Peak. Colorado Springs 
has the fourth highest concentration of veterans in the Nation. 
The area is home to the U.S. Air Force Academy, Peterson Air 
Force Base, Shriever Air Force Base, NORAD, and Fort Carson, 
and we currently have 11,000 troops deployed to Iraq from Fort 
Carson. The VA has repeatedly rejected proposals to build a 
national cemetery in the Pike's Peak region, citing its goal to 
have 90 percent of veterans within 75 miles of a cemetery. This 
is a commendable goal, but it is an arbitrary one. It was 
intended to make sure isolated small pockets of veterans did 
not have to drive too far for a cemetery. But in Pike's Peak, 
we have one of the largest veterans communities in the Nation 
just within the 75-mile boundary, so we ought to find a way of 
getting this national cemetery built in the Pike's Peak area. I 
fully support S. 551.
    Secondly, there is another item of legislation that is on 
our agenda and it is Senate Bill 1259, called the VETS Act. 
That act is intended to improve the transition out of the 
military so that more of our servicemembers can find better 
civilian jobs. The bill builds on a hearing that Chairman Craig 
and Ranking Member Akaka held on this important issue. I want 
to thank them for their usual bipartisan leadership and for 
modeling bipartisanship in this Committee. The bill is also 
informed by research and conversations I have had with Colorado 
veterans who have struggled to find good jobs after leaving the 
military and are unsatisfied with transition assistance that 
they have received.
    Statistics show that new veterans are struggling to find 
good jobs. Veterans discharged since January 2001 have an 
unemployment rate of 6.9 percent, nearly 7 percent. That is 
compared to 5.9 percent unemployment in the general population 
during that time period. Recently released veterans who are 
disabled have an even higher rate of unemployment. These are 
disabled veterans with an unemployment rate of 8.3 percent. We 
can and we must do better. S. 1259 takes a number of important 
steps to improve that transition process.
    I will submit the rest of my statement for the record, in 
the interest of time and knowing that my colleagues are waiting 
here to testify. But I am proud of the work of this Committee, 
and Senator Craig and Senator Akaka, I applaud you for holding 
this hearing today.
    [The prepared statement of Senator Salazar follows:]

   Prepared Statement of Hon. Ken Salazar, U.S. Senator from Colorado

    Thank you Chairman Craig and Senator Akaka, for putting together 
this hearing. Thank you to Admiral Cooper, Under Secretary Wannemacher, 
Mr. McClain and all the members of the Veterans Service Organizations 
who are here today.
    I want to extend a special welcome to my colleague from Colorado, 
Senator Wayne Allard, who will testify today on a bill we have worked 
on together closely.
    Today, we are going to discuss a bill that I have been working on 
with Senator Allard to establish a cemetery in Colorado Springs, part 
of the Pikes Peak Region of Colorado.
    Pikes Peak has one of the largest per-capita veterans populations 
in the Nation. More than 105,000 veterans and the more than 30,000 
active-duty members of the military call the area home. Despite this, 
the nearest veteran's cemetery is at Fort Logan, a 70-mile trip from 
Springs through heavy Denver traffic.
    There are few parts of the country friendlier to the military and 
to veterans than Pikes Peak. Colorado Springs has the fourth-highest 
concentration of veterans in the Nation. The area is home to the U.S. 
Air Force Academy, Peterson Air Force Base, Schriever Air Force Base, 
NORAD, and Fort Carson, which has 11,000 troops deployed in Iraq.
    The VA has repeatedly rejected proposals to build a national 
cemetery in Pikes Peak, citing its goal to have 90 percent of veterans 
within 75 miles of a cemetery. This is a commendable goal, but an 
arbitrary one. It was intended to make sure isolated small pockets of 
veterans did not have to drive too far for a cemetery. But in Pikes 
Peak we have one of the largest veterans communities in the Nation just 
within the 75-mile boundary. That is surely not what the VA intended 
when it set up its demographic criteria.
    The 75-miles boundary is not even relevant in this case, because 
veterans in the area have identified numerous potential cemetery sites 
near Fort Carson that are beyond the boundary.
    The veterans of Pikes Peak deserve a National Veterans Cemetery in 
their own community. I hope Members of this Committee will support S. 
551.
    Another piece of legislation we will consider is S. 1259, the VETS 
Act, to improve the transition out of the military so that more of our 
servicemembers can find better civilian jobs.
    This bill builds on a hearing that Chairman Craig and Senator Akaka 
held on this important issue. I want to thank them for their bipartisan 
leadership. The bill is also informed by research and conversations I 
have had with Colorado veterans who have struggled to find good jobs 
after leaving the military and are unsatisfied with transition 
assistance they have received.
    Statistics show that that new veterans are struggling to find good 
jobs. Veterans discharged since January 2001 have an unemployment rate 
of 6.9 percent compared to 5.9 percent in the general population. 
Recently released veterans who are disabled have an even higher rate of 
unemployment--8.3 percent.
    We can do a much better job, and S. 1259 takes a number of 
important steps to improve the transition process.
    First, it would give veterans service organizations better access 
to separating servicemembers. VSOs have always had a special role, both 
within the VA and in veterans' lives. We saw during the claims 
adjudication hearing last month that vets who are represented by VSO's 
get substantially better results from the VBA. VSOs and the lifelong 
support they provide have made the critical difference for countless 
veterans. This bill helps VSOs reach veterans and begin that engagement 
early.
    Second, it would separate the functions of re-enlistment 
recruitment and pre-separation counseling. On many military facilities, 
including at Fort Carson, Colorado, there is one officer or office 
responsible first for convincing servicemembers to re-enlist and second 
for providing counseling for those who decide to leave the military. 
This can represent a conflict of interest and relegates employment and 
benefits counseling to an afterthought within DoD.
    Third, S. 1259 encourages participation in intensive 2- to 3-day 
employment workshops. Participation in these Transition Assistance 
Program workshops varies a great deal and often depends on whether or 
not individual commanding officers encourage and allow it during duty 
time. S. 1259 would simply establish TAP participation rates as one of 
the performance measures for commanding officers. This would help 
create a culture of participation across all the branches of service.
    I hope Members of this Committee will support this bill.
    I am proud that Senators in this Committee and others who are 
joining us today have worked to find bipartisan solutions to improve 
the VA's outreach, improve the care of former POWs, and expand burial 
benefits.
    I want to thank Senators Craig and Akaka for introducing bills that 
will make a huge difference in the lives of veterans by improving 
insurance and housing benefits as well as benefits for Native American 
veterans. I want to particularly recognize Senator Akaka for S. 1252, a 
bill I was proud to work on with him and co-sponsor.
    Thank you again, Chairman Craig, Senator Akaka. I look forward to 
this hearing.

    Chairman Craig. Ken, thank you very much.
    We have been joined by our colleague Jay Rockefeller. 
Senator Rockefeller, do you have any opening comments you would 
like to make?
    Senator Rockefeller. Mr. Chairman, I am late and we have 
two moderately looking impatient Senators at the witness table, 
so I am going to withhold my wisdom until after they have 
imparted theirs.
    Chairman Craig. All right. That is very kind and courteous 
of you. Thank you. We will move to our colleagues who are here 
this morning to testify on bills they have introduced that are 
moving through this Committee.
    Let me first recognize, as Senator Salazar has said, his 
colleague and mine from Colorado, Congressman--``Congressman''. 
We went back too far on that one, didn't we?
    Senator Wayne Allard. Senator, welcome.

   OPENING STATEMENT OF HON. WAYNE ALLARD, U.S. SENATOR FROM 
                            COLORADO

    Senator Allard. Well, thank you, Mr. Chairman. Thank you 
for holding this important hearing. Obviously you have a lot on 
your platter here today.
    I would also just like to specially recognize my colleague 
from Colorado, Senator Salazar, and do appreciate his support 
of Senate Bill 551. I also appreciate the opportunity just to 
say a few words about the legislation. I would ask the Chairman 
if he would make my full statement a part of the record.
    Chairman Craig. Without objection, it will be. Thank you.
    Senator Allard. The legislation I introduced to authorize 
the creation of the Colorado Springs National Cemetery that is 
being considered by this Committee is an issue of importance to 
the Colorado Springs community and to all of southern Colorado. 
I am pleased to be here to ask for your support. And identical 
House companion legislation has been introduced by 
Representative Joel Hefley.
    As you are already aware, the purpose of the proposal is to 
establish a much-needed national cemetery in the Colorado 
Springs metropolitan area. It is my belief that this 
legislation answers a significant need in that area that has 
been brought to my attention repeatedly by community leaders 
and local veterans service organizations. In fact, it is the 
growing military retiree and veterans populations in the area 
that has influenced by decision to introduce this legislation.
    I note that the 2000 Census indicated that as many as 
103,000 veterans and 110,000 spouses are in the Colorado 
Springs area, who may be eligible for burial in a national 
cemetery. In addition, there are nearly 23,000 retired 
personnel in the 5th Congressional District of Colorado alone, 
the third largest Department of Defense retired community in 
any congressional district in the country.
    The Colorado Springs area is also the home of many active 
duty installations, many of them already mentioned by my 
colleague. That is the Army's Fort Carson, along with Peterson 
and Shriever Air Force Bases. They are the premier military 
installations located in southern Colorado. These bases are all 
slated to grow significantly after the 2005 base-realignment 
closure round is completed. It should also be noted that the 
Air Force Academy and Cheyenne Mountain, which includes the 
elements of the North American Aerospace Defense Command, and 
the U.S. Northern Command, are also located in this fast-
growing area.
    These installations are home to nearly 30,000 uniformed 
personnel, not including dependents that are potentially 
eligible for interment at the proposed cemetery. This 
legislation will allow the thousands of eligible Colorado 
Springs military personnel, both active duty and retired, as 
well as the many veterans living in the area, to have a chance 
to find their final resting place in the city that so many of 
them have come to love and appreciate.
    In addition to the creation of a cemetery, the bill would 
also give authority to the Secretary of Veterans Affairs to 
accept a parcel of land as a gift to the Department for the 
establishment of the national cemetery. To this end, the local 
governments around Colorado Springs, as well as the local 
veterans services organizations have been working together to 
pursue a suitable location in the area that could be donated to 
the VA Department. Several possible locations are being 
considered. Concurrently, my colleague Representative Hefley 
and I are pursuing a legislative proposal that would create a 
buffer zone around Fort Carson, Colorado to protect against 
encroachment, and I believe this might be an ideal candidate 
for the proposed cemetery.
    I believe that it is imperative for us to closely examine 
the needs of the area's large veterans population and the 
growing military community. A new cemetery seems well-deserved. 
The ever-increasing retiree and veteran demographics show a 
strong need for a final resting place and a lasting memorial in 
the community that would commemorate their service to our 
Nation. I do believe that the Colorado Springs metro area is 
especially suited for a national cemetery.
    Again, I thank you, Chairman Craig, for the opportunity to 
speak here today. I look forward to working with the Committee 
to ensure passage of the legislation.
    [The prepared statement of Senator Allard follows:]

  Prepared Statement of Hon. Wayne Allard, U.S. Senator from Colorado

    Thank you, Mr. Chairman, for holding this important hearing today.
    I appreciate the opportunity to say a few words about S. 551, the 
legislation I introduced authorizing the creation of a Colorado Springs 
National Cemetery that is being considered by this Committee. It is an 
issue of importance to the Colorado Springs community and to all of 
Southern Colorado, and I am pleased to be here to ask for your support. 
The legislation is co-sponsored by my Colorado colleague Senator 
Salazar and has an identical House companion introduced by 
Representative Joel Hefley. As you are already aware, the purpose of 
the proposal is to establish a much needed National Cemetery in the 
Colorado Springs metropolitan area. It is my belief that this 
legislation answers a significant need in the area that has been 
brought to my attention repeatedly by community leaders and local 
Veterans Service Organizations.
    In fact, it is the growing military retiree and veterans population 
in the area that has influenced my decision to introduce this 
legislation. I note that the 2000 Census indicated that as many as 
103,000 veterans and 110,000 spouses are in the Colorado Springs area 
who may be eligible for burial in a national cemetery. In addition, 
there are nearly 23,000 retired personnel in the 5th Congressional 
District of Colorado alone--the third largest DoD retired community in 
any Congressional District in the country.
    The Colorado Springs area is also the home of many active duty 
installations. The Army's Fort Carson, along with Peterson and 
Schriever Air Force Bases, are the premier military installations 
located in Southern Colorado. These bases are all slated to grow 
significantly after the 2005 Base Realignment and Closure round is 
completed. It should also be noted that the Air Force Academy and 
Cheyenne Mountain, which includes elements of the North American 
Aerospace Defense Command (NORAD) and the U.S. Northern Command 
(NorthCom) are also located in this fast growing area. These 
installations are home to nearly 30,000 uniformed personnel, not 
including dependants, that are potentially eligible for internment at 
the proposed cemetery. This legislation will allow the thousands of 
eligible Colorado Springs military personnel, both active duty and 
retired as well as the many veterans living in the area, to have a 
chance to find their final resting place in the city so many of them 
have come to love and appreciate.
    In addition to the creation of a cemetery, the bill would also give 
authority to the Secretary of Veterans' Affairs to accept a parcel of 
land as a gift to the Department for the establishment of the national 
cemetery. To this end, the local governments around Colorado Springs as 
well as the local Veteran's Service Organizations, have been working 
together to pursue a suitable location in the area that could be 
donated to the VA Department. Several possible locations are being 
considered. Concurrently, my colleague Representative Hefley and I are 
pursuing a legislative proposal that would create a buffer-zone around 
Ft. Carson, Colorado to protect against encroachment that I believe 
might be an ideal candidate for the proposed cemetery.
    Let me State that I am aware of the VA standard of a 75-mile radius 
as an appropriate service area for national cemeteries. Colorado 
Springs falls a few miles short of this standard, but I believe that it 
is imperative for us to closely examine the needs of the area's large 
veterans population and the growing military community a new cemetery 
would serve. The ever increasing retiree and veteran demographics show 
a strong need for a final resting place and lasting memorial in the 
community that would commemorate their service to our Nation.
    I do believe that the Colorado Springs metro area is especially 
suited for a national cemetery. Again, I thank you Chairman Craig, for 
the opportunity to speak here today, and I look forward to working with 
the Committee to ensure passage of the legislation.

    Chairman Craig. Senator Allard, thank you very much for 
that testimony.
    Now let me turn to our colleague Mark Pryor. Senator Pryor 
is from the great State of Arkansas. Welcome before the 
Committee, Mark.

    OPENING STATEMENT OF HON. MARK PRYOR, U.S. SENATOR FROM 
                            ARKANSAS

    Senator Pryor. Thank you, Mr. Chairman, and thank you for 
having me here. I thank all the Committee Members for their 
attention to this.
    Picking up on Senator Rockefeller's theme of wisdom, I am 
going to keep my comments short. I would ask that my statement 
be submitted for the record.
    Chairman Craig. Without objection.
    Senator Pryor. And also there is a news article which 
outlines pretty well the problem that we are trying to solve 
here, and I would ask that that be submitted for the record as 
well.
    Chairman Craig. Thank you. It will be, without objection.
    Senator Pryor. Let me say that it is with regret that 
Senator Norm Coleman, the Republican sponsor of the Veterans 
Benefits Outreach Act is not here today. Apparently he is out 
at a BRAC hearing, which we can all understand that.
    Chairman Craig. Thank you for mentioning him as one of the 
sponsors of this. I think that is correct.
    Senator Pryor. Yes. Certainly he would be here but for the 
urgency of that situation that he has been working very 
diligently on. He has worked very diligently and very 
vigorously on this legislation, and I know he wants to be here 
today. But I will do my very best to confer the purpose of S. 
151, the Veterans Outreach Act.
    Basically, the VA has done a survey that now estimates that 
there about 572,000 U.S. veterans that will not receive the 
benefits that they have earned. And many of these veterans--not 
all, but many of these veterans do not receive their benefits 
because they don't know how to access them or they get tangled 
up in the bureaucracy and are not able to do that. So this, I 
think, may be exacerbated a little bit by the fact that we will 
have so many veterans returning from Iraq and Afghanistan, not 
just very recently, but also over the next coming months and 
perhaps even over the next several years. That is why Senator 
Coleman and I have been working on S. 151, the Veterans 
Benefits Outreach Act.
    One thing that is important for the Committee to understand 
is there is no new money in this bill. We are not requiring a 
new expenditure of funds. Basically what we are asking the VA 
to do is have them make an effort to identify veterans who are 
not receiving benefits and who might be entitled to them and 
come up with an annual plan of outreach to these veterans, and 
to notify them or, through whatever system the VA thinks is 
efficient and effective, to allow them to know what benefits 
are available and to encourage them to participate if they 
choose to.
    The other thing it does is--and this is an important 
provision--is it calls for the VA to coordinate outreach 
efforts with State and local education and training programs, 
nongovernmental organizations that carry out veterans programs, 
State and local veteran employment organizations, and business 
and professional organizations. We think that if the VA can 
kind of lead the team effort here, it can be very, very 
effective.
    Thanks again to the Committee for their attention. And just 
in closing, I would like to say that these are services and 
programs that our veterans have earned through their service to 
this Nation, and Senator Coleman and I are very concerned that 
our veterans receive what they are entitled to. I appreciate 
the Committee's attention to this. Thank you.
    [The prepared statement of Senator Pryor follow:]

   Prepared Statement of Hon. Mark Pryor, U.S. Senator from Arkansas

    Chairman Craig, Ranking Member Akaka. Thank you for allowing me to 
be here today to provide testimony on S. 151, the Veterans Benefits 
Outreach Act.
    First, it is with regret that Senator Norm Coleman, the Republican 
sponsor of the Veterans Benefits Outreach Act, is unable to be here 
today. Senator Coleman has worked vigorously on this legislation and it 
was unfortunate that a scheduling conflict has kept him from being here 
today. I will do my best to confer upon you the importance of 
implementing the straightforward provisions of S. 151.
    The Veterans Benefits Outreach Act was written following a Knight 
Ridder analysis of Veterans Administration (VA) survey data that 
estimated that 572,000 U.S. veterans may not be receiving the benefits 
that they have earned. In brief, Knight Ridder concluded that many 
veterans were simply unaware of the veterans' benefits available and 
that the VA's efforts to keep these veterans informed have fallen 
short.
    It should be noted that the VA outreach programs are improving, 
especially for active duty soldiers. Nevertheless, data shows that our 
older, more venerable veterans from past conflicts are not as likely to 
get the benefits that they deserve. Furthermore, with veterans 
returning en mass from Iraq and Afghanistan educating and guiding these 
young men and women through the VA system will be a significant job 
that should be tackled proactively.
    From this and other data, we can all agree that outreach and 
education to our veterans is our duty and that the burden is on us to 
provide the necessary outreach to ensure that veterans, and their 
dependents, can make informed decisions and claims in the world of ever 
changing veteran benefits.
    Thus, I present to you S. 151, the Veterans' Benefits Outreach Act. 
It simply calls for the Department of Veterans' Affairs to develop an 
annual outreach strategy for our veterans. Under this legislation, the 
VA would be required to make an effort to identify veterans not 
enrolled in the VA system and propose programs to keep all veterans and 
their dependents informed of current benefits and services to which 
they are entitled.
    S. 151 has one last very important provision to accomplish these 
goals, it calls for the Veterans Administration to coordinate outreach 
efforts with State and local education and training programs, non-
governmental organizations that carry out veteran programs, State and 
local veteran employment organizations, and businesses and professional 
organizations.
    In my view, it is essential to work with our State and local 
officials and non-governmental organizations if we are to have 
meaningful programs in place that will help our Nation's veterans 
receive adequate information to make informed choices about their 
health care options. Veterans should not have to jump through hoops to 
learn about and receive the benefits they've earned. This bipartisan 
bill represents an opportunity to cut through bureaucracy and meet the 
challenges we foresee instead of waiting until benefit problems 
escalate for a new generation of veterans.
    In closing, we know that thousands of veterans and their dependents 
go unaware of their benefits to which they are entitled and that the 
modifications and changes to existing services only complicate this 
matter. We must do what we can to ensure that the VA system is 
responsive to their needs and Senator Coleman and I believe S. 151 will 
help in this regard. I hope that the Committee can support the 
provisions of S. 151 and act on this bill immediately.
                                 ______
                                 

 [From the Tribune News Service, Knight Ridder Washington Bureau, July 
                                3, 2004]

      Thousands of Disabled Vets Lack Disability Payments Due to 
                      Poor Agency Outreach, Stigma

                   (By Alison Young and Chris Adams)

    Jefferson City, Missouri.--Frostbite and gangrene still ravage 
Joseph Hallemann's legs nearly 60 years after he was an Army scout 
wading through an icy French harbor in World War II.
    Yet for decades, Hallemann never received compensation from the 
U.S. Department of Veterans Affairs for the injuries he suffered in 
service to his country.
    It wasn't until the State of Missouri noticed how few of its 
veterans were getting Federal disability benefits and set up a program 
to find them that Hallemann learned he was eligible.
    ``I think it's a dang disgrace on the country,'' said Missouri Lt. 
Gov. Joe Maxwell. ``We've asked men and women to serve and pay a 
horrible price, and then to abandon them when they come home. These are 
not handouts; these are earned benefits.'' Despite Abraham Lincoln's 
admonition for the country ``to care for him who shall have borne the 
battle,'' hundreds of thousands of vets nationwide potentially are 
missing out on disability payments from the VA--and the agency's 
efforts to find them have fallen far short.
    A Knight Ridder analysis of the VA's own survey data puts the 
number of those veterans at about 572,000. If all of them were to 
secure monthly benefits, they could be collecting $4.5 billion a year, 
based on current average payments.
    Funding such a sizable liability wouldn't be easy, of course, 
during this time of high deficits, competing national priorities and 
reconstruction of Iraq. But advocates for veterans say the Nation made 
promises it's obligated to keep.
    While the VA has an ambitious program to enroll current soldiers as 
they prepare for discharge, officials with State and nonprofit veterans 
agencies say the Federal Government does little to find vets who left 
the military years or decades ago.
    Linda Boone, the executive director of National Coalition for 
Homeless Veterans, said VA officials expect vets to contact them if 
they want benefits. ``They don't do the outreach,'' she said.
    Mike McLendon, the VA's deputy assistant secretary for policy, said 
the agency has come a ``long, long way'' in reaching out to veterans. 
He said he suspects that many veterans who may be eligible for 
disability benefits have simply chosen not to apply.
    ``At the end of the day, we have to recognize that the VA cannot 
order people to file a claim,'' McLendon said.
    With no comprehensive Federal outreach program, many State veterans 
departments have set out to find these missing veterans. They're 
motivated in part by the big differences in the percentage of each 
state's veterans who receive Federal disability benefits, which ranges 
from 16 percent to 6 percent.
    Joseph Hallemann recalls vividly the relentless cold that enveloped 
him during the war--from his landing at Le Havre in France in 1945 to 
sleeping in snow banks. ``I remember standing one night in a manure 
pile. That's how you would get your feet warm,'' said Hallemann, who 
recalls being paid $30 a month by the Army. He received a Combat 
Infantryman Badge and a Bronze Star for heroism.
    Young Pfc. Hallemann's legs were badly damaged by the cold. Six 
decades later, they're purple, black and brown, and he has significant 
nerve damage.
    ``I can't feel anything, said Hallemann, 78, who walks with great 
difficulty.
    In 1947, Hallemann applied to the VA for compensation, but the 
government--using a fill in-the-blank form letter that he's kept all 
these years--rejected his claim. Hallemann dropped the matter until 
July 2002, when he went to a Missouri Veterans Commission gathering in 
his hometown of Florissant, about 20 miles northwest of St. Louis.
    Missouri officials encouraged Hallemann to reapply and helped him 
document his case. He now has a 100 percent disability rating, which 
pays him more than $2,200 a month.
    Last year, Missouri helped Vietnam veteran Arthur Griffin get his 
monthly disability check. ``It means we can pay our electric bill,'' 
said the 57-year-old forklift mechanic. His family has been scraping by 
since his wife, Linda, quit her job to care for her elderly parents.
    Four years ago, doctors diagnosed Griffin, of Republic, Mo., with 
Type II diabetes and told him that he'll likely develop crippling 
problems in his hands and feet. Because he did two tours in Vietnam, 
the VA presumed that Griffin's diabetes was caused by exposure to Agent 
Orange, a potent herbicide. Griffin now has a 20 percent disability 
rating. He receives $205 a month, as well as medical care and 
medications for his condition.
    ``This is a godsend,'' said his wife. ``It just really helps to 
know that if something happens, he'll be taken care of.'' Griffin said 
he was reluctant to apply. ``I looked at it as welfare, and it's not,'' 
he said. ``They're finally keeping their end of the bargain. I hadn't 
thought of it that way.'' Calling them ``veterans supermarkets,'' 
Missouri has held about 20 such outreach events across the State in the 
past 2 years.
    ``When we do a supermarket, we may have 250 vets file 150 claims,'' 
said Ron Taylor, the executive director of the Missouri Veterans 
Commission, during an event in Jefferson City in April. ``Many of them 
may have filed a claim a number of years ago, been denied and didn't 
follow up.'' Others are primarily interested in gaining access to VA 
medical care, which is often contingent on having a disability 
connected to military service.
    Taylor and Maxwell, a Democrat, credit the program with helping to 
add 4,000 Missouri vets to Federal disability rolls.
    The disabilities that the government pays for are wide ranging: 
from the loss of an arm or leg while in combat to more subtle damage, 
such as hearing loss from working near heavy artillery. The VA also 
covers arthritis from old injuries and illnesses from chemical 
exposure.
    The VA's rigorous application process, which can take months and 
sometimes years to complete, requires documentation of the veterans' 
medical conditions and military records or other proof to show the 
disabilities resulted from service. Compensation checks range from $106 
to $2,239 a month. Of the country's 25 million living veterans, 2.5 
million receive about $20 billion in disability compensation payments 
each year.
    The 572,000 uncompensated veterans counted in Knight Ridder's 
analysis are those who say they have disabilities that they believe are 
connected to their military service but they've never applied for 
benefits. It's a tally derived from a 2001 VA survey of 20,000 veterans 
nationwide.
    It's impossible to say how many of the 572,000 would have the 
documentation needed to qualify. The VA notes that among veterans in 
the survey who thought they should be getting benefits and had applied, 
more than one-third were turned down.
    The large number of missing veterans suggests that the VA isn't 
doing enough to connect veterans to the benefits they've earned, said 
Rep. Bill Pascrell Jr., D-N.J. In 2000, he introduced the Veterans 
Right to Know Act, which called for more outreach and for the VA to 
prepare a yearly plan for outreach activities. While some language from 
the bill made it into law, the requirement for an annual outreach plan 
has gone nowhere.
    Pascrell called the VA's lackluster outreach effort 
``unconscionable.'' VA officials strongly disagree. But they can 
provide little data to demonstrate the agency is being effective, even 
though they've been working to do so since last year in response to 
questions from Congress.
    The outreach programs that VA officials tout most are directed only 
at soldiers on active duty. Since 1990, the VA has offered intensive 
benefits seminars to soldiers nearing discharge and in 1998 began 
helping them apply. About 30,000 soldiers filed disability claims 
through this outreach program last year--about a quarter of new claims.
    The VA's efforts for older veterans are more modest. VA officials 
said they contact them through pamphlets, the Internet, press releases 
and through partnerships with local officials.
    Most direct contact is done by State and county veterans agencies 
and nonprofit veterans groups. In some parts of the country, these 
groups are adequately staffed and aggressive in their pursuit of 
veterans. In others, they're not.
    Ray Boland, a former president of the National Association of State 
Directors of Veterans Affairs, said there needs to be a consistent 
approach. The goal should be ``to provide equal services to all 
veterans wherever they live,'' said Boland, a retired Wisconsin 
Department of Veterans Affairs official.
    The differences in State services help explain the wide 
disparities.
    At the high end are states such as Alaska, New Mexico, Oklahoma and 
Texas, where 12 percent to 16 percent of veterans receive disability 
compensation payments. At the low end are Illinois, Iowa, Connecticut 
and Michigan, where 6 percent or 7 percent of veterans get 
compensation. The national average is 9.9 percent.
    Experts say other things affect the differences. Economic and 
demographic factors likely play roles. States with large military 
bases, for example, may rank higher because career military personnel 
retire nearby and are more likely to have service-related disabilities.
    Nonetheless, the differences have provoked concern.
    Rep. Lane Evans of Illinois, the Ranking Democrat on the House 
Committee on Veterans' Affairs, said he was ``completely surprised'' by 
the disparities. He said the differences deserve congressional 
scrutiny.
    ``Is there any reason to believe twice as many veterans in Puerto 
Rico and Maine than Illinois should qualify?'' asked Evans. ``We are 
going to be looking into it.'' Sen. Arlen Specter, R-Pa., who chairs 
the Senate Veterans' Affairs Committee, said he hasn't heard many 
complaints about disabled veterans not getting their due. ``And this is 
a group that is well represented,'' he said.
    To State directors, it's obvious more needs to be done. Oklahoma 
has long had one of the highest percentage of veterans receiving 
Federal disability benefits. The key, State officials say, is sending 
well-trained claims preparers to neighborhoods rather than forcing 
veterans to find them.
    ``We make sure we get the service to where the veterans are,'' said 
Phillip Driskill, the department's executive director.
    Even with nearly 13 percent of Oklahoma's 360,000 veterans 
receiving disability checks, Driskill thinks there are thousands more 
who deserve payments but aren't getting them.
    Such projections from a State near the top of the list make States 
near the bottom look potentially worse.
    Pennsylvania, for instance, has 1.2 million veterans--but fewer 
than 8 percent are receiving compensation for disabilities. Jim 
Davison, the State's deputy director for veterans affairs, said too few 
resources and a lack of aggressive outreach by State and local 
nonprofit veterans groups may help explain the disparity.
    Tom Johnson, California's new secretary of veterans affairs, asked 
his staff to explore outreach programs after learning his State ranked 
just below the national average.
    ``We're going to put our shoulder to the wheel and see how we can 
make improvements,'' he said.
    (Editors' Notes: The U.S. Department of Veterans Affairs and 
Missouri Veterans Commission are CORRECT. The House Committee on 
Veterans' Affairs, unlike others, uses the possessive plural form of 
veterans.
    Also, here are details of our analysis for your information. Knight 
Ridder evaluated data from the VA's National Survey of Veterans. We 
discussed our methodology with the VA's survey expert, and showed her 
our analysis. She said the 572,000 figure was a reliable estimate, 
based on the survey of veterans who told interviewers they had a 
disability, felt it was related to their service, but had not applied 
for benefits. The survey comes from interview of 20,048 veterans in 
2001; the sample was compared with census data and weighted by the VA 
to produce a reliable sample of the veteran population nationwide.)

    Chairman Craig. Mark, thank you very much for that 
testimony. We thank both of you for coming before the Committee 
today. We appreciate it.
    Senator Rockefeller, I will turn back to you if you have 
any opening comments this morning before we call our second 
panel up.
    Senator Rockefeller. I am obviously very disturbed by what 
appears now to be at least a billion-dollar-plus shortfall in 
veterans funding. And I am sort of focused on that right now. 
There are 12 important bills in the markup this morning, some 
of which I am associated with, and I am very much aware of 
them. But I am thinking, really, more about this shortfall. It 
is a crisis the level of which I have not seen in 21 years on 
this Committee.
    Chairman Craig. We will be talking about that at a press 
conference at noon, the message going out to all the colleagues 
now, Members of this Committee, with all the detail we have at 
this time.
    Senator Rockefeller. Good.
    Chairman Craig. Thank you. Thank you very much.
    Then let me turn to our second panel, the Department of 
Veterans' Affairs. The Hon. Daniel L. Cooper, Under Secretary 
for Benefits, the U.S. Department of Veterans' Affairs, and he 
is accompanied by Richard Wannemacher, Jr., Acting Under 
Secretary for Memorial Affairs and John H. Thompson, Deputy 
General Counsel.
    Gentlemen, thank you very much for being with us this 
morning. We will turn to you. Secretary Cooper, please proceed.

    STATEMENT OF HON. DANIEL L. COOPER, UNDER SECRETARY FOR 
BENEFITS, U.S. DEPARTMENT OF VETERANS' AFFAIRS; ACCOMPANIED BY 
 RICHARD WANNEMACHER, JR., ACTING UNDER SECRETARY FOR MEMORIAL 
      AFFAIRS AND JOHN H. THOMPSON, DEPUTY GENERAL COUNSEL

    Admiral Cooper. Thank you, Mr. Chairman.
    Chairman Craig and Members of the Committee, I appreciate 
the opportunity to appear to you today to present the VA's 
views on several bills under consideration. I will comment on 
eight of the bills submitted to us for review. Unfortunately, 
four additional bills were received too late for us to evaluate 
adequately.
    Chairman Craig. Mr. Secretary, thank you for recognizing 
that. As I mentioned in my opening comments, because we want to 
get all of these bills on the table and get them under 
discussion and for your analysis, as that analysis comes in we 
will submit that for our record and to be analyzed by us. And 
we thank you for that.
    Admiral Cooper. I fully intend to get them to you as soon 
as possible, Senator.
    Chairman Craig. Absolutely.
    Admiral Cooper. I would now like to talk about several that 
some Members of the Committee have analyzed and talked about 
today, so I will skip over my notes to make sure I don't cover 
the same ground.
    Chairman Craig. All right. Thank you.
    Admiral Cooper. S. 151 would require us to make an annual 
plan for outreach activities for the coming years. This is to 
include both plans to identify veterans who are not enrolled or 
registered, and plans for informing veterans of changes to the 
VA benefits programs. We support enactment of S. 151.
    S. 423 would amend Title 38 to make a stillborn child an 
insurable dependent for purposes of the servicemember's SGLI. 
Insuring stillborn infants under SGLI would directly benefit 
those servicemembers and their families who tragically 
experience a stillbirth by providing financial assistance at 
the time of need. We do support enactment of S. 423. The SGLI 
program would absorb the cost and there would be no new costs 
to our Government.
    S. 551 would require us to establish a national cemetery in 
Colorado Springs, Colorado. Using demographic studies which we 
have used over the years and changed as time went by, we work 
to focus our efforts on areas that will serve the greatest 
number of veterans. Currently we use a 75-mile service area 
standard and a veteran population threshold of 170,000 for 
establishing new national cemeteries. I might add, Senator 
Salazar mentioned 65 miles. My notes say 75 miles. So the 
veterans who reside in Colorado Springs are served by Fort 
Logan National Cemetery, which I am informed is 65 miles away. 
It will have casket and cremation burial space available until 
2021. We estimate that the cost for establishing a national 
cemetery at Colorado Springs would range from $20 million to 
$30 million, and the average annual operating cost would range 
from $1 million to $2 million. We do not support S. 551.
    S. 552 would make a technical correction to Title 38. This 
law grants eligibility for the full $50,000 specially adapted 
housing grant. Let me just add, Senator Akaka summarized this 
very well. The major point here is that previously we were 
allowed by an amendment to do the specially adapted housing 
while the individual was still in the service awaiting 
discharge. That meant that the home would, hopefully, be ready 
for occupancy as soon as they were discharged. That was the 
reason for having this provision in the law. It was, 
unfortunately, left out in another amendment. So we strongly 
support this particular amendment to correct the earlier error.
    VA also supports 909, which would expand eligibility for 
Government grave markers. Under this bill, we would provide a 
marker for the grave of a veteran in a private cemetery, 
regardless of whether the grave had been previously marked at 
private expense.
    S. 917 would make the Native American Direct Loan program 
permanent. As Senator Akaka stated, this program began as a 
pilot program in October 1992, and so far we have made over 450 
loans to Native American veterans. It is currently set to 
expire in December of 2008. Discussion is ongoing with the 
executive branch concerning the bill. We will inform the 
Committee of our position within the next couple of weeks.
    VA supports Section 2 of S. 1234, the Veterans Compensation 
Cost-of-Living Adjustments, which is strictly the COLA 
adjustment. Obviously, we strongly support that.
    VA supports enactment of Section 2, S. 1235, which would 
make several changes to the Servicemembers' Group Life 
Insurance and VGLI insurance programs effective October 2005. 
Section 2(a) would require the Secretary of Defense to make a 
good-faith effort to notify a servicemember's spouse when the 
servicemember reduces the amount of his or her SGLI or 
designates someone other than his or her spouse. There are 
potentially difficult administrative changes and we would like 
to work with Congress to ensure that these issues are 
addressed.
    This bill would also increase the maximum amount of SGLI 
and VGLI to $400,000. It would permit a servicemember to elect 
an amount in his or her SGLI by $50,000 increments; in other 
words, starting at $400,000 and coming down by $50,000 if that 
is what they so desire. We support enactment of these 
provisions because they provide the opportunity for each 
servicemember to determine the proper insurance protection 
needs of his or her family.
    Section 2(b) would extend from 1 year to 2 years the period 
in which a totally disabled SGLI-covered veteran can convert to 
VGLI. We support this provision because, as you stated, many of 
these people are very much involved in taking care of their 
disablement and don't have time to fully dedicate to financial 
planning. We think this is a very good recommendation and we 
certainly support it.
    We also support Section 3 of 1235, relating to interest 
rate adjustments for hybrid ARMs. Currently, Ginnie Mae has not 
been willing to pool the hybrid ARMs when lenders want to sell 
them on the secondary market. We feel that this limits loans 
that are available to our veterans, so we very strongly support 
this particular adjustment.
    Mr. Chairman, there are four bills that we have not had 
time to evaluate. One is 1138, which would authorize the 
placement of a monument in Arlington for the Army Ranger 
battalions in World War II, and we will comment on that later.
    S. 1252 would increase the amount of supplemental insurance 
available for totally disabled veterans, as Senator Akaka 
mentioned. We will have to come back to you on that.
    S. 1259 would extend the requirements for reports from the 
VA on the disposition of cases for equitable relief due to our 
administrative error. It would also provide improved benefits 
for the transition of members from combat zones to noncombat 
zones, and also for transition from service in the armed forces 
to civilian life. We have not had time to evaluate that and we 
will come back to you on that.
    And finally, 1271, which is the one that Senator Murray 
mentioned. This will provide improved benefits for veterans who 
are former POWs. We still have to look at that.
    Mr. Chairman, this concludes my remarks. We will be pleased 
to answer your questions.
    [The prepared statement of Mr. Cooper follows:]

     Prepared Statement of Hon. Daniel L. Cooper, Under Secretary 
           for Benefits, U.S. Department of Veterans Affairs

    Mr. Chairman and Members of the Committee, I appreciate this 
opportunity to testify today on several bills concerning important 
programs administered by the Department of Veterans Affairs (VA).

                                 S. 151

    S. 151, the ``Veterans Benefits Outreach Act of 2005,'' would 
require the Secretary of Veterans Affairs to prepare each year a plan 
for VA outreach activities for the following year. This bill would 
require that each annual plan include VA's plans for efforts to 
identify veterans who are not enrolled or registered with VA for 
benefits or services, as well as VA's plans for informing veterans and 
their dependents of changes to VA benefit programs, including 
eligibility for medical and nursing care and services. The Secretary, 
in developing an annual plan, would also be required to consult with 
officials of recognized veterans service organizations, officials of 
State and local education and training programs, representatives of 
non-governmental organizations that carry out veterans outreach 
programs, representatives of State and local veterans employment 
organizations, businesses and professional organizations, and other 
individuals and organizations that assist veterans in adjusting to 
civilian life. Furthermore, S. 151 would require the Secretary to take 
into account lessons learned from implementation of prior annual plans. 
Finally, S. 151 would require the Secretary to incorporate the 
recommendations for improvement of veterans outreach and awareness 
activities included in the report submitted to Congress by the 
Secretary pursuant to section 805 of the Veterans Benefits Improvement 
Act of 2004.
    VA supports enactment of S. 151. Some of the outreach VA performs 
would be more difficult to plan, because it is in reaction to changes 
in statute or regulation, Congressional or media interest, or other 
current events; we nevertheless support enactment of this bill. We 
believe that no one should be deprived of an available veterans benefit 
because he or she did not know that such a benefit was available. Costs 
would be negligible.

                                 S. 423

    S. 423 would amend section 1965 of title 38, United States Code, to 
make a stillborn child an insurable dependent for purposes of the 
Servicemembers' Group Life Insurance (SGLI) program. The term 
``stillborn natural child'' would not include any fetus or child 
extracted for purposes of an abortion.
    VA supports enactment of S. 423. Insuring stillborn infants under 
SGLI would directly benefit those servicemembers and their families who 
tragically experience a stillbirth, by providing financial assistance 
at a time of need. This benefit would help defray medical care and 
burial or cremation costs incurred by a servicemember because of a 
stillbirth. A funeral for such a child can cost as much as $3,000.
    Private insurers do not generally insure stillborn children. In 
fact, private insurance coverage for a child typically does not begin 
until the fourteenth day after a live birth. Nevertheless, VA supports 
departing from the general industry practice on this issue because SGLI 
coverage for stillbirths would support servicemembers and their 
families, ease their suffering and distress during a family crisis, and 
improve morale.
    The total cost to the SGLI program for adding stillborn coverage 
would be $4 million annually based on an estimate of 400 stillbirths 
per year with a benefit of $10,000 per stillbirth. The SGLI program 
would absorb all costs associated with implementation of S. 423. There 
would be no new cost to the Government.

                                 S. 551

    Section 1(a) of S. 551 would require VA to establish a national 
cemetery in the Colorado Springs, Colorado, metropolitan area. Section 
1(b) would require VA to consult with Federal, State, and local 
officials before selecting a site for the cemetery. Section 1(c) would 
authorize VA to accept the gift of an appropriate parcel of real 
property, over which VA would have administrative jurisdiction, to be 
used to establish the cemetery. The property would be considered as a 
gift to the United States for purposes of Federal income, estate, and 
gift taxes. Finally, section 1(d) would require VA to report to 
Congress on the establishment of the cemetery, including an 
establishment schedule and estimated costs.
    VA does not support S. 551. VA has established a veteran population 
threshold of 170,000 within a 75-mile radius as appropriate for 
establishing new national cemeteries. Veterans who reside in Colorado 
Springs are considered served by Fort Logan National Cemetery, which is 
65 miles away. Fort Logan National Cemetery will have casket and 
cremation burial space available until 2021.
    As required by law, VA is in the process of establishing 11 new 
national cemeteries. The locations for these cemeteries were determined 
from demographic studies of the veteran population, which allow VA to 
focus its efforts on areas that will serve the greatest number of 
veterans. The most recent demographic study of the veteran population, 
which was completed in 2002, did not indicate a need for a new national 
cemetery in Colorado.
    As part of a planned comprehensive evaluation of the burial 
benefits and services provided to veterans and their families, VA will 
assess how well the current 75-mile-radius standard serves veterans. We 
will begin the program evaluation this year and keep Congress informed 
throughout the process. VA will use the findings and data from the 
evaluation in VA's strategic planning to improve service delivery.
    The VA State Cemetery Grants program, however, is an option for 
providing additional burial options for veterans in the Colorado 
Springs area. Through this program, VA may provide up to 100 percent of 
the costs for establishing a State veterans cemetery, including the 
cost of initial operating equipment. VA recently worked with Colorado 
officials to establish a State veteran's cemetery in Grand Junction and 
would be pleased to assist the State in exploring this option for 
Colorado Springs.
    Based on recent experience, the cost for establishing new national 
cemeteries ranges from $20 million to $35 million, and the average 
annual operating costs ranges from $1 million to $2 million.

                                 S. 552

    S. 552 would make a technical correction to section 2101 of title 
38, United States Code, as amended by section 401 of the Veterans 
Benefits Improvement Act of 2004, Public Law 108-454, regarding 
eligibility for specially adapted housing benefits. VA favors enactment 
of S. 552.
    Section 401 of Public Law 108-454 granted eligibility for the 
``full'' $50,000 Specially Adapted Housing grant to veterans with a 
total and permanent service-connected disability as a result of the 
loss or loss-of-use of both upper extremities at or above the elbow. 
Unfortunately, section 401 also contained a technical drafting error 
that had the effect of repealing a recently enacted benefit.
    Public Law 108-183, enacted December 16, 2003, granted eligibility 
for Specially Adapted Housing benefits to members of the Armed Forces 
who were still serving on active duty and who incurred qualifying 
disabilities in line of duty. That provision enabled severely injured 
servicemembers awaiting medical discharge to receive a VA grant to 
adapt their homes to meet their special needs without having to wait 
for their discharges to become final. In amending section 2101 of title 
38, United States Code, section 401 of Public Law 108-454 inadvertently 
deleted the language added by Public Law 108-183. S. 552 would restore 
the language added to section 2101 in 2003 retroactive to the enactment 
of Public Law 108-454.
    Enactment of S. 552 would have no significant cost impact.

                                 S. 909

    S. 909 would expand eligibility for government markers by changing 
the applicability date of VA's current authority to provide a marker 
for the private-cemetery grave of a veteran regardless of whether the 
grave has been marked at private expense.
    Pursuant to 38 U.S.C. Sec.  2306(d)(1), VA is authorized to furnish 
a Government marker for the grave of an individual who is buried in a 
private cemetery, even if the gravesite is already privately marked. 
However, this authority extends only to individuals who died on or 
after September 11, 2001. S. 909 would authorize VA to furnish such 
markers for the graves of individuals who died on or after November 1, 
1990.
    VA supports enactment of S. 909. Under current law, if a veteran 
died before September 11, 2001, VA is authorized to furnish a 
Government headstone or marker only if the veteran's grave is unmarked. 
Although the current law has allowed VA to begin to meet the needs of 
families who view the Government-furnished marker as a means of 
honoring and publicly recognizing a veteran's military service, VA is 
now in the difficult position of having to deny this recognition based 
solely on when a veteran died.
    Furthermore, the law has never precluded the addition of a 
privately purchased headstone to a grave after placement of a 
Government-furnished marker, even though this practice results in 
double marking. In contrast, if a private marker is placed on a 
veteran's grave in the first instance, a Government marker may not be 
provided if the veteran died before September 11, 2001. In our view, 
this creates an arbitrary distinction disadvantaging families who 
promptly obtained a private marker.
    For veterans who died during the period from October 18, 1979, 
until November 1, 1990, when the Omnibus Budget Reconciliation Act of 
1990 was enacted, VA may pay a headstone or marker allowance to those 
families who purchased a private headstone or marker in lieu of a 
Government headstone or marker. Therefore, those families also had an 
opportunity to benefit from the VA-marker program. S. 909 would, for 
the first time, permit families who bought a private marker for 
veterans who died between November 1, 1990, and September 11, 2001, to 
participate in the VA-marker program as well.
    VA estimates that enactment of S. 909 would cost $90,000 during 
fiscal year 2006 and $225,000 over the 10-year period fiscal years 
2006-2015. VA pays for headstones and markers with funds from the 
Compensation and Pension appropriation account.

                                 S. 917

    S. 917 would make the Native American Direct Loan program 
permanent. This program began as a pilot program in October 1992. VA 
has made over 450 loans under this program to Native American veterans. 
This program is currently set to expire December 31, 2008.
    Discussion is ongoing within the executive branch regarding this 
bill. We will inform the Committee of our position as soon as possible.

                                S. 1234

    Section 2 of S. 1234, the ``Veterans' Compensation Cost-of-Living 
Adjustment Act of 2005,'' would direct the Secretary of Veterans 
Affairs to administratively increase the rates of disability 
compensation for veterans with service-connected disabilities, 
additional compensation for their dependents, the clothing allowance, 
and dependency and indemnity compensation for the survivors of veterans 
whose deaths are service related, effective December 1, 2005. As 
provided in the President's fiscal year 2006 budget request, the rate 
of increase would be the same as the cost-of-living adjustment (COLA) 
that will be provided under current law to veterans' pension and Social 
Security recipients. We believe this proposed COLA is necessary and 
appropriate to protect the benefits of affected veterans and their 
survivors from the eroding effects of inflation. These worthy 
beneficiaries deserve no less.
    We estimate that enactment of this bill would cost $399 million 
during fiscal year 2006 and $5.5 billion over the period fiscal years 
2006-2015. However, because the cost is already assumed in the Budget 
baseline, enactment of this provision would not result in any 
additional cost.

                                S. 1235

    Section 2 of S. 1235, the ``Veterans' Benefits Improvement Act of 
2005,'' would, effective October 1, 2005, make several changes to the 
SGLI and Veterans' Group Life Insurance (VGLI) programs. Section 2(a) 
would require the Secretary of Defense to make a good-faith effort to 
notify a servicemember's spouse whenever the servicemember reduces the 
amount of his or her SGLI coverage or designates someone other than his 
or her spouse as a beneficiary. If a servicemember marries or remarries 
after making such an election, the Secretary of Defense would not be 
required to provide the notification. Only elections made after 
marriage or remarriage would be subject to the notice requirement. 
Failure of the Secretary of Defense to provide timely notification 
would not affect the validity of any election by the servicemember.
    Because this bill would not extend the current law that goes into 
effect September 1, 2005, but instead defines a new program that would 
start when the current program expires on September 30, 2005, there are 
some potentially difficult administrative challenges that would 
unnecessarily burden both servicemembers and the Government. For 
example, married members who named a beneficiary other than a spouse or 
child under current law and whose spouses consented would once again 
have to fill out the paperwork required to designate the beneficiary, 
and the Government would have to notify the spouse. The Administration 
would like to work with Congress to ensure that these issues are 
addressed.
    We note as well that, under 38 U.S.C. Sec. 1968(a)(1), SGLI 
coverage terminates 120 days after separation or release from active 
duty or active duty for training, unless the servicemember is totally 
disabled on that date, in which event SGLI coverage terminates 1 year 
after separation or release from active duty or active duty for 
training. Also, section 1977(d) of title 38, United States Code, states 
that ``any designation of beneficiary or beneficiaries for [SGLI] filed 
with a uniformed service until changed, shall be considered a 
designation of beneficiary or beneficiaries for [VGLI], but not for 
more than 60 days after the effective date of the insured's [VGLI].'' 
It is unclear whether the notification provision of section 2, which 
refers to a ``member'' of a uniformed service, would apply to any 
change in beneficiary designation that a servicemember would make 
within the 120-day period after discharge but prior to cessation of 
SGLI coverage or that a VGLI insured would make within the 60-day 
period referenced in section 1977(d). Also, if section 2(a) were 
applicable to VGLI beneficiary designations, it would be difficult to 
implement because the Office of Servicemembers' Group Life Insurance 
does not maintain data regarding a VGLI insured's marital status. We 
recommend that, if section 2(a) is enacted, it explain whether it is 
applicable to any change in beneficiary during these two periods of 
time.
    Section 2(a) and (c) would increase the maximum amount of SGLI and 
VGLI to $400,000. These provisions would extend the increase to 
$400,000 made by section 1012 of Pub. L. No. 109-13, which will 
terminate on September 30, 2005. Section 2(a) would also permit a 
servicemember to elect an amount of SGLI less than the maximum 
available provided the amount of coverage on the member is evenly 
divisible by $50,000, rather than $10,000, as currently provided by 
law.
    VA supports enactment of these provisions because they provide the 
opportunity for servicemembers to increase insurance protection for 
their families. Permitting coverage in multiples of $50,000 would 
simplify the administration of the SGLI program and would align with 
the proposal by the Administration.
    Section 2(b) would amend 38 U.S.C. Sec. 1968(a)(1)(A) and (4) to 
extend from 1 year to 2 years the period in which a totally disabled 
SGLI insured can convert SGLI to VGLI. VA supports this provision 
because many totally disabled insureds cannot complete post-separation 
financial planning within 1 year due to the severity of their 
disabilities. Extending the SGLI post-service coverage period to 2 
years would enable some totally disabled veterans who would be unable 
to obtain commercial life insurance to obtain VGLI. Extending the 
period would also allow VA to conduct additional outreach to totally 
disabled veterans and inform them about the opportunity to convert 
their SGLI to VGLI. There would be no cost to the Government; 
additional costs would be borne by the SGLI program.
    Section 3 of S. 1235 contains a technical drafting error. As 
written, it would strike from section 3707(c)(4) of title 38, United 
States Code, language that does not appear in that provision. We 
believe section 3 was intended to amend section 3707A(c)(4) of title 
38, United States Code, which pertains to Hybrid Adjustable Rate 
Mortgages (Hybrid ARMs).
    Currently, section 3707A(c)(4) limits annual interest rate 
adjustments, after the first such adjustment, on Hybrid ARMs to 1 
percentage point. Assuming that the amendment proposed by section 3 of 
the bill were made to section 3707A(c)(4) rather than section 
3707(c)(4), the annual interest rate adjustment after the first 
adjustment on VA Hybrid ARMs could be for such percentage points as 
prescribed by the Secretary. VA favors such an amendment to section 
3707A.
    Most hybrid ARMs insured by the Department of Housing and Urban 
Development currently allow subsequent annual interest rate adjustments 
in excess of 1 percentage point. Because VA Hybrid ARMs are limited to 
1 percentage point, the Government National Mortgage Association (also 
known as ``Ginnie Mae'') has not been willing to pool VA Hybrid ARMs. 
That has limited the availability of VA Hybrid ARMs. VA believes that 
veterans using their earned housing loan entitlement should have access 
to the same financing alternatives, such as Hybrid ARMs, that are 
available under Federal Housing Administration and conventional loan 
programs.

                   S. 1138, S. 1252, S. 1259, S. 1271

    Unfortunately, we did not receive the text of S. 1252, the 
``Disabled Veterans Insurance Improvement Act,'' S. 1259, the 
``Veterans Employment and Transition Services Act,'' or S. 1271, the 
``Prisoner of War Benefits Act of 2005,'' in time to be able to state 
our views on those bills. We will be happy to provide the Committee 
with official views and estimates once the necessary executive branch 
coordination has been completed. S. 1138, a bill to authorize placement 
in Arlington National Cemetery of a monument honoring veterans who 
fought in World War II as members of Army Ranger Battalions, was also 
recently added to the hearing agenda. We will provide our comments on 
this bill to the Committee after completing necessary executive branch 
coordination.
                                 ______
                                 
                     Addendum to Prepared Statement

    As requested at the June 23, 2005, legislative hearing before the 
Senate Committee on Veterans' Affairs, I am pleased to provide the 
views of the Department of Veterans Affairs (VA) on those bills for 
which we did not previously submit comments, including: S. 917, a bill 
to make permanent the pilot program for direct housing loans for Native 
American veterans; S. 1138, a bill to authorize placement in Arlington 
National Cemetery of a monument honoring veterans who fought in World 
War II as members of Army Ranger Battalions; S. 1252, the ``Disabled 
Veterans Insurance Improvement Act of 2005;'' S. 1259, the ``Veterans 
Employment and Transition Services Act;'' and S. 1271, the ``Prisoner 
of War Benefits Act of 2005.'' VA's views on each of these bills are 
discussed below. To the extent that VA supports enactment of aspects of 
these bills that have cost implications, it is assumed that the costs 
would be accommodated within the scope of the President's budget 
request.

                                 S. 917

    This bill would make the Native American Direct Loan program 
permanent. Under this program, which was enacted as a pilot program in 
October 1992, VA has made over 450 loans to Native American veterans 
living on trust lands. This program is currently set to expire on 
December 31, 2008.
    VA believes the Native American Direct Loan program has proven to 
be a viable benefit which provides financing to a unique class of 
veterans residing in areas where private funding is not generally 
available. VA looks forward to working with the Congress to extend this 
program. We are advised, however, that the Department of Justice has 
some constitutional concerns. We would be pleased to work with the 
Committee staff and the Department of Justice to address those issues 
and develop legislation that the Administration can support.
    VA estimates that enactment of S. 917 would produce a first-year 
discretionary saving of $708 thousand and a 10-year discretionary 
saving of approximately $23 million.

                                S. 1138

    S. 1138 would amend section 2409 of title 38, United States Code, 
to authorize the Secretary of the Army to place in Arlington National 
Cemetery a monument honoring the veterans who fought in World War II as 
members of Army Ranger Battalions. The Secretary of the Army would have 
exclusive authority to approve an appropriate design and site within 
Arlington National Cemetery for the monument.
    Because the Secretary of the Army, not VA, administers Arlington 
National Cemetery, we defer to the views of the Secretary of the Army 
on S. 1138.

                                S. 1252

    S. 1252, the ``Disabled Veterans Insurance Improvement Act of 
2005,'' would amend section 1922A of title 38, United States Code, to 
increase from $20,000 to $40,000 the amount of supplemental life 
insurance available to veterans who are insured under Service-Disabled 
Veterans' Insurance (S-DVI) and who qualify for waiver of premiums due 
to total disability. Under current law, a veteran who has a service-
connected disability but is otherwise in good health may obtain up to 
$10,000 of S-DVI by applying to VA within 2 years from the date of 
being notified that the disability is service connected. 38 U.S.C. 
Sec. Sec. 1903, 1922(a). VA may, upon application of an insured 
veteran, waive the payment of premiums during a period of continuous 
total disability. 38 U.S.C. Sec. Sec. 1912(a), 1922(a). Section 1922A 
currently provides up to $20,000 of supplemental insurance to a 
disabled veteran who: (1) has basic S-DVI coverage; (2) has obtained a 
waiver of premiums on this coverage because he or she is totally 
disabled; and (3) applies to VA for the supplemental S-DVI coverage 
within 1 year of being notified by VA that he or she is entitled to 
waiver of premiums. 38 U.S.C. Sec. 1922A(a) and (b). Waiver of premiums 
is not available on the supplemental coverage. 38 U.S.C. Sec. 1922A(d).
    By increasing the amount of available supplemental S-DVI to 
$40,000, S. 1252 would address a major concern of veterans, as shown by 
the congressionally-mandated study, Program Evaluation of Benefits for 
Survivors of Veterans with Service-Connected Disabilities. This study 
indicated that veterans were least satisfied with the maximum insurance 
available and that veterans deem the need for increased coverage to be 
most important. In our view, the current aggregate S-DVI coverage of 
$30,000 is insufficient to meet disabled veterans' life insurance 
needs. S. 1252 would increase the financial security of disabled 
veterans by affording them the opportunity to purchase additional life 
insurance coverage otherwise not available to them. Accordingly, VA 
supports S. 1252.
    S. 1252 does not specify its scope of applicability, but we 
interpret it to apply prospectively to any veteran who is eligible to 
apply for and obtain supplemental S-DVI under section 1922A, or to 
change the amount of supplemental S-DVI coverage previously obtained, 
on or after the date of S. 1252's enactment. Based on this 
interpretation, VA estimates that the additional coverage provided by 
S. 1252 would cost $2.6 million over the 5-year period fiscal year 2006 
through fiscal year 2010 and $9.5 million over the 10-year period 
fiscal year 2006 through fiscal year 2015.

                                S. 1259

    Section 2 of S. 1259, the ``Veterans Employment and Transition 
Services Act,'' would amend section 503(c) of title 38, United States 
Code, to extend from December 31, 2004, to December 31, 2009, the 
requirement that the Secretary of Veterans Affairs annually report to 
Congress on the disposition of cases recommended to the Secretary for 
equitable relief.
    VA estimates that there would be no new cost to the Government 
associated with enactment of this provision. Accordingly, VA does not 
object to section 2 of S. 1259.
    Section 3(a) of S. 1259 would amend title 10, United States Code, 
to require the Secretary of Defense and the Secretary of Homeland 
Security to carry out a program to facilitate the access of 
representatives of military and veterans' service organizations and of 
representatives of State military and veterans' service agencies to 
provide pre-separation counseling and services to servicemembers who 
are scheduled for discharge, release from active duty, or retirement. 
Section 3(b) of S. 1259 would amend chapter 17 of title 38, United 
States Code, to require VA to carry out a program to facilitate the 
access of the same representatives to veterans who are furnished care 
and services under chapter 17, to provide information and counseling on 
benefits and services available from VA. VA would have to facilitate 
access at every VA and non-VA facility at which VA furnishes medical 
care and services. VA would be authorized to waive provisions in 
regulations promulgated under section 264(c) of the Health Insurance 
Portability and Accountability Act of 1996 that restrict access to 
veterans, to the extent necessary to ensure the access to veterans. 
Access to a veteran under the program would be subject to the veteran's 
consent.
    Because the amendments to be made by section 3(a) would concern 
only the departments of Defense and Homeland Security, we defer to the 
views of the secretaries of those departments on that provision.
    VA opposes section 3(b) of S. 1259 for two reasons. First, an 
additional new outreach program of this type is not needed. 
Representatives from veterans' service organizations or State veterans 
agencies already have access to veteran patients whenever veterans 
request their services. Indeed, representatives from State programs and 
national veterans' service organizations typically have offices in VA 
medical centers and VA regional offices and can provide outreach 
services to veterans at other VA facilities, including community-based 
outpatient clinics. Additionally, each VA clinic displays information 
on how to obtain assistance from a veterans' liaison as well as 
representatives from veterans service organizations and State veterans 
programs. Second, VA objects to permitting VA to waive certain 
provisions in regulations promulgated under the Health Insurance 
Portability and Accountability Act. The safeguarding of personal health 
information has long been paramount for staff at VA facilities. VA 
strictly confines access to veterans' personal health information to 
those who need to know the information. For example, VA gives 
caregivers access to patient records that facilitate their treatment 
and care of patients. However, not all facility employees have access 
to veterans' records. Potentially allowing some degree of access to 
non-VA employees, as section 3(b) apparently contemplates, may confuse 
all involved. Accordingly, VA objects to section 3(b) of the bill. VA 
estimates that there would be no new costs associated with the 
amendments proposed by section 3(b) since the outreach services 
contemplated by this section are already available.
    Section 4 of S. 1259 would amend title 10, United States Code, to 
require the secretary of each branch of the Armed Forces to improve 
pre-separation counseling and transitional assistance provided to 
servicemembers who are eligible to separate from service.
    Because section 4 concerns only the Armed Forces, we defer to the 
views of those departments on section 4 of S. 1259.

                                S. 1271

    Section 2(a) of S. 1271, the ``Prisoner of War Benefits Act of 
2005,'' would amend section 1112 of title 38, United States Code, to 
eliminate the requirement currently in section 1112(b)(1)(B) that a 
veteran have been detained or interned as a prisoner of war (POW) for 
at least 30 days to be entitled to a presumption of service connection 
for the diseases listed in section 1112(b)(3). Section 2(a) would also 
add four diseases to the list of diseases in section 1112(b) that may 
be presumed to be service connected for former POWs. Those additional 
diseases are heart disease, stroke, diabetes (type 2), and 
osteoporosis.
    Section 2(b) of S. 1271 would authorize the Secretary to establish 
a presumption of service connection for former POWs for any disease for 
which VA has determined, based on sound medical and scientific 
evidence, that ``a positive association exists between the experience 
of being a [POW] and the occurrence of [the] disease in humans.'' 
Section 2(b) would also require VA to issue certain regulations and, in 
determining Advisory Committee on association exists, to Prisoners of 
War consider recommendations from the any other relevant scientific 
information.
    Just a few years ago, section 1112(b) limited the presumption of 
service connection for specified diseases associated with POW 
experience to veterans who were former POWs and were detained or 
interned for not less than 30 days. However, section 201 of the 
Veterans Benefits Act of 2003, Pub. L. No. 108-183, Sec. 201, 117 Stat. 
2651, 2656, eliminated the 30-day requirement for psychosis, any 
anxiety state, dysthymic disorder, organic residuals of frostbite, and 
post-traumatic osteoarthritis. In implementing that amendment in its 
regulations, VA noted that the diseases that remained subject to the 
30-day requirement, such as diseases associated with malnutrition, are 
generally incurred over a prolonged period of internment. Interim Final 
Rule, Presumptions of Service Connection for Diseases Associated with 
Service Involving Detention or Internment as a Prisoner of War, 69 Fed. 
Reg. 60,083, 60,088 (2004). Nevertheless, because heart disease and 
stroke could be associated either with malnutrition during prolonged 
captivity or with stress due to torture or abuse, which can occur 
during brief periods of captivity, VA added heart disease and stroke to 
the regulatory list of diseases that do not require at least 30 days of 
detention or interment to be presumed incurred in service in a former 
POW. Id. This illustrates VA's belief that there should be no generally 
applicable minimum detention or internment requirement, but that such a 
requirement may be appropriate for certain diseases if the evidence 
indicates that they are associated only with prolonged captivity. 
Accordingly, VA supports elimination of the arbitrary 30-day minimum 
internment requirement, provided that VA retains authority to impose a 
minimum period of detention or internment for certain diseases if such 
minimum period is adequately supported by sound scientific or medical 
evidence.
    Having determined that sound medical or scientific evidence 
supports an association between atherosclerotic heart disease or 
hypertensive vascular disease (including hypertensive heart disease) 
and their complications (including myocardial infarction, congestive 
heart failure, and arrhythmia) and POW internment and a positive 
association between stroke and its complications and POW internment, VA 
added those diseases to the regulatory list of diseases presumed 
service connected in a former POW. Id. at 60,085-87, 60,090. Therefore, 
VA supports section 2(a) of S. 1271 to the extent that it codifies VA's 
existing regulations concerning heart disease and stroke. However, VA 
is not aware of any sound scientific or medical evidence of a positive 
association between type 2 diabetes or osteoporosis and internment as a 
POW. Accordingly, at this time, VA opposes the provisions in section 
2(a) of S. 1271 that would establish presumptive service connection for 
type 2 diabetes and osteoporosis.
    Based on the amendments that would be made by section 2 of S. 1271, 
VA estimates that approximately 2,400 former POWs and 1,168 surviving 
spouses of former POWs would be affected by this legislation and apply 
for benefits. Assuming a 100-percent grant rate, we further estimate 
that benefit costs would be $6.5 million in the first year, $102.2 
million for 5 years, and $223.1 million for 10 years. Administrative 
costs are estimated to be an additional $765,000 during the first year 
and $1.6 million for 5 years.
    VA opposes the procedure in section 2(b) of S. 1271 for 
establishing presumptive service connection for diseases associated 
with POW internment. Regulatory procedures for identifying diseases 
associated with POW internment already exist. Pursuant to the 
Secretary's authority in section 501(a) of title 38, United States 
Code, to prescribe all rules and regulations necessary or appropriate 
to carry out the laws administered by VA, including regulations with 
respect to the nature and extent of proof and evidence and the method 
of taking and furnishing them in order to establish the right to 
benefits, VA promulgated regulations establishing a new procedure for 
establishing POW presumptions. 69 Fed. Reg. 60,083. This procedure, 
which is codified at 38 C.F.R. Sec. 1.18, is substantially similar to 
existing procedures for the herbicide, Gulf War, and radiation 
presumptions, with minor differences necessary to reflect 
considerations unique to former POWs. VA's establishment of presumptive 
service connection for heart disease and stroke, which was done under 
VA's regulatory procedure, demonstrates that the new procedure is 
effective.
    The proposed amendments would require VA to issue various 
regulations in response to recommendations received from the Advisory 
Committee on Former Prisoners of War. Under 38 U.S.C. Sec. 541(a)(2), 
the Committee comprises former POWs, disabled veterans, and health care 
professionals. Under current law, the Secretary must regularly consult 
with the Committee and seek its advice on the compensation, health 
care, and rehabilitation needs of former POWs. 38 U.S.C. Sec. 541(b). 
Not later than July 1 of each odd-numbered year through 2009, the 
Committee must submit to the Secretary a report recommending, among 
other things, administrative and legislative action. 38 U.S.C. 
Sec. 541(c)(1). The procedure outlined in section 2(b) of S. 1271 would 
require the Secretary to make a decision regarding the appropriateness 
for a presumption within 60 days of receiving a Committee 
recommendation, issue proposed regulations within 60 days following 
that decision, and issue a final rule within 90 days of issuing the 
proposed rule. This procedure is similar to the procedure that Congress 
established for herbicide and Gulf War presumptions, both of which 
generally concern VA rulemaking following the receipt of a report from 
the National Academy of Sciences. See 38 U.S.C. Sec. Sec. 1116, 1118. 
However, unlike the herbicide and Gulf War procedures, S. 1271 would 
require strict guidelines for rulemaking in response to Committee 
recommendations which do not provide a thorough scientific review and 
analysis upon which to establish presumptions. Under current 38 C.F.R. 
Sec. 1.18, the Secretary may contract with the appropriate expert body, 
such as National Academy of Sciences' Institute of Medicine, for the 
necessary analysis of current science. We believe this regulation 
provides a more scientifically sound basis for creation of presumptions 
than that contemplated by S. 1271.
    The Office of Management and Budget advises that there is no 
objection to the submission of this report from the standpoint of the 
Administration's programs.

    Chairman Craig. Thank you very much for covering that many 
issues in a reasonably succinct period of time.
    Your testimony rightly points out the difficulty we have 
with respect to the SGLI program in that the changes in the 
Emergency Supplemental Act go into effect for only 30 days, 
from September 1 to September 30, 2005. Is it your position 
that Congress must act on the SGLI provisions of S. 1235 prior 
to the September 2005 in order to avoid some of the 
difficulties you outlined in your testimony?
    Admiral Cooper. Yes, sir, that is--I have my insurance guru 
over here--but yes sir, that is correct. You are correct.
    Chairman Craig. Thank you. I have attempted to strike a 
balance between the rights of spouses to be informed of 
insurance decisions and the right of the servicemembers to make 
those decisions through my spousal notification language in S. 
1235. Does my legislation strike an appropriate balance? Does 
it improve upon the notification and consent provisions that 
were in the supplemental appropriations act?
    Admiral Cooper. I think it does improve upon those, yes, 
sir. I think it probably strikes the right balance, predicated 
on the fact that the veteran is only going to have to notify or 
try to notify if he or she remarries or marries after the 
original designation. I think as originally set up--I will tell 
you frankly, I supported the original idea of having 
notification, but then I realized a lot of things have changed 
since I got married. And so as a result, I think that the way 
you have stated it does strike a good balance, yes, sir.
    Chairman Craig. Well, we sensed some difficulties in that, 
looked at it in kind of the practical light of realism and 
said, ``How do we get there?'' So thank you for reacting to it. 
We appreciate that.
    S. 1235 would extend for an additional year the opportunity 
totally disabled veterans have to convert their insurance 
coverage from the SGLI to the VGLI after separation from 
service. If enacted, what is VA prepared to do during this 
additional year to identify and encourage veterans to take 
advantage of this new conversion right?
    Admiral Cooper. I think our focus would be on notification. 
We send letters to these people, letting them know they have 
the right to convert. And I think we do it at the 6-month point 
also. We would continue to do it just to ensure that they are 
notified.
    I don't think there is a large percentage of veterans who 
are not notified. I am not sure, but it is certainly something 
that we would do to ensure that they did get as much 
notification as possible.
    Chairman Craig. S. 151 would compel VA to prepare an annual 
plan for the conducting of outreach activities during the next 
fiscal year. It seems to me that this is the sort of thing that 
VA managers would be doing already. Am I correct to think that 
VA already does this? Does VA need to be compelled by 
legislation to do this basic planning for outreach activities? 
Tell us where you are with current law and current practice.
    Admiral Cooper. One of the things that we have attempted to 
do and to increase, particularly over the last several years, 
is to reach people as they are discharged. Working through the 
JEC with the Department of Defense, we have set up a means by 
which most people attend TAP and DTAP briefings. Same thing 
with National Guard and Reserves. We are working with DOD to 
see whether they will make attendance mandatory. And we also 
have various notifications by mail.
    You can never say that you are doing enough. However, we 
are doing a tremendous amount. In each of the last 3 years, we 
have increased by a very large percentage the number of 
veterans we are reaching. We are trying to do it as they come 
out, so they know about their benefits right away. We are 
trying to do notifications even before they come out for such 
things as the Montgomery GI Bill. Similarly, when people are 
released with disabilities, we are making sure that they are 
immediately aware of our vocational rehabilitation and 
employment program.
    So the answer to your question is, we are working very 
hard. I have statistics here that look very good. You could 
always do more. I would hesitate to say to you that we need 
this bill to do it; we are trying to do it every way we can. We 
have said we support the bill.
    Chairman Craig. Well, Mr. Secretary, thank you very much 
for those comments and your testimony and your colleagues' 
presence here this morning.
    Let me turn to Senator Akaka for his questions.
    Senator Akaka. Thank you. Thank you very much, Mr. 
Chairman. Admiral Cooper, I read in your written testimony that 
there is discussion within the executive branch regarding my 
bill, S. 917, which would make the Native American Direct Loan 
program permanent. CBO has informed my staff that whether the 
funding for this program continues as discretionary or becomes 
mandatory, that the program will continue to be a saver for the 
foreseeable future and if made mandatory, the program will not 
need an additional appropriation. That is from CBO.
    Given this assurance, what is your view of my bill?
    Admiral Cooper. I would like to do two things. First, let 
me tell you, we have supported it and our Loan Guaranty program 
has used it and used it very well. I think it is not a monetary 
discussion. And of course, the other thing that provides a 
safety net is the fact that the pilot program now in operation 
does not expire until December 2008. Therefore, I was not 
overly concerned when I was told we couldn't take a position 
yet.
    But I would like my general counsel to make a statement 
because I think he has followed it better than I.
    Mr. Thompson. Yes, Senator. We don't have yet all the 
particulars about the various discussions going on across the 
park from where we work, but we understand there may be a 
concern about the appropriateness of some of the current 
definitional provisions for the program. It sounds as if we 
will be able to get back to you very shortly giving the 
Administration's position on the bill. I would point out that 
there really is no great rush on this. The program is 
authorized through 2008 and, you know, the Department has every 
intention of following through to implement the program, but we 
just don't yet have a cleared official position we can share.
    Senator Akaka. Admiral Cooper, I direct this question to 
you because of my past experiences in this program and in 
outreach. Will you explain the ongoing outreach efforts that VA 
is undertaking to expand eligibility for Native American Home 
Loan program by entering into more memorandums of understanding 
with different tribes?
    Also, what outreach effort has VA engaged in to increase 
awareness of this program in the Native American community?
    Admiral Cooper. Could I ask--I have my Loan Guaranty expert 
here, too, and I think he can discuss it in more depth than I. 
Mr. Pedigo. But let me tell you that we have worked MOUs with a 
large percentage of the tribes. And of course we have to have 
this MOU, then, to go on. But we have also done a good bit of 
outreach with people--going out to the tribes, talking to them, 
explaining to them what benefits are available.
    But if I could have Mr. Pedigo talk for a minute, I would 
appreciate it.
    Senator Akaka. Please.
    Mr. Pedigo. Mr. Chairman, Senator Akaka, we have a very 
active program of trying to promote the Native American Direct 
Loan program. We have designated Native American Direct Loan 
representatives in each of our nine regional loan centers, and 
their responsibility is to make contact with all of the Native 
American tribes within their jurisdiction to make sure that 
they are aware of this program and to work with those tribes to 
try to establish memoranda of understanding, which is a 
requirement of the law before we can make loans.
    Now, as you are aware, this program has been most 
successful in Hawaii, on the Hawaiian homelands, as well as 
American Samoa, Guam, and the Northern Mariana Islands. And 
that is a testament to the very aggressive promotion that the 
Honolulu Regional Office has provided for this program.
    Unfortunately, there are some inhibiting factors in Indian 
country that have prevented us from making a lot of loans. 
Ninety percent of the loans that have been made in this program 
have been made in Hawaii and American Samoa. The problem in 
Indian country is that generally the income of the Native 
American veterans who apply in Indian country is not sufficient 
to support the loan. We are trying to work to resolve that 
problem, but essentially it is out of our control.
    Senator Akaka. I thank you so much for your response. Thank 
you very much for mentioning Hawaii. I was one that brought 
that program on, and I must tell you it has been successful. 
And in looking at the other Native American areas, I discovered 
that the numbers were low. But you are explaining partly why it 
is low. And of course, we want to make it available to all and 
try to work toward that. So, Mr. Pedigo, I really appreciate 
your comments and also Mr. Secretary.
    Chairman Craig. In relation to this, Danny, may I ask the 
question--I think I know the answer, but--In Indian country, is 
the difficulty fee simple title?
    Mr. Pedigo. That is not a difficulty because, the way the 
program was structured, it is designed to allow the VA to make 
loans on Trust land. So the law itself----
    Chairman Craig. What is the difficulty? You said there were 
some institutional impediments.
    Mr. Pedigo. The primary difficulty is lack of income among 
the veterans who apply from Indian country. There are some 
other problems, such as lack as appropriate infrastructure on 
some of the reservations and bad credit among some of the 
veterans.
    Senator Akaka. So my follow-up question on that is are 
those Native Americans aware of these problems?
    Mr. Pedigo. We believe that most of them are aware of the 
problems. Our local representatives deal with them and try to 
resolve these problems when they come up, but I believe that 
those who have entered into memoranda of understanding are 
aware of the inhibiting factors on their reservations.
    Senator Akaka. My time has expired, Mr. Chairman.
    Chairman Craig. Danny, thank you very much.
    Senator Salazar, Ken.
    Senator Salazar. Thank you very much, Mr. Chairman.
    Admiral Cooper, let's go first to the Colorado Springs 
cemetery legislation that Senator Allard and I have offered, 
Senate Bill 551. My question to you is this: I understand, and 
you are correct that the 75-mile limitation which has been a 
part of the VA's analysis with respect to the location of a new 
national cemetery is part of the way that you approach these 
issues. If there is a site that we can locate for you that is 
further than 75 miles away from Fort Logan--Fort Logan is way 
up in Denver to the north, you have Monument Pass on the way--
would that make a difference in your analysis?
    And let me just ask the second question so we can cover 
this whole issue in response. The second question is--I 
recognize the capital costs that are associated with the $21 
million that you talked about in terms of creation of a new 
hospital and the ongoing maintenance and operations--Is there a 
precedent for putting together a public-private kind of 
partnership to be able to fund these things and would that be 
helpful? If I could find contributors that would provide some 
of the private money to make the national cemetery a reality, 
is that something that would be a factor at all in your 
consideration of this possibility?
    Admiral Cooper. I would like to refer the question to the 
Under Secretary for Memorial Affairs, since he is the one that 
works with this.
    Senator Salazar. Thank you, Admiral Cooper.
    Mr. Wannemacher. Senator Salazar, to go back to the first 
question, the policy that we have developed, the 75-mile 
service area and the 170,000-veteran population threshold 
allows us to reach, currently, 75 percent of the veterans 
population, and our goal by 2010 is 90 percent. This is a 
result of a partnership----
    Senator Salazar. A hundred--excuse me. If I may----
    Mr. Wannemacher. A hundred and seventy thousand veterans.
    Senator Salazar. The 170,000 veterans, explain that 
criteria for me. What does that mean?
    Mr. Wannemacher. Within a 75-mile service area.
    Senator Salazar. Within a 75-mile radius of the location. 
OK.
    Mr. Wannemacher. To meet our goal of 90 percent by 2010, we 
rely on the States to utilize the State Cemetery Grants 
Program. Which allows us to assist States in those areas that 
don't meet the established criteria of 170,000-veteran 
population threshold within 75 miles. The State of Colorado has 
participated in the State Cemetery Grants Program for the 
creation of the Veterans Memorial Cemetery of Western Colorado. 
In regards to your question about the private-public 
partnership opportunities, the State must furnish the land and 
then the State Cemetery Grants Program would be able to work 
with the State to establish a State Veterans Cemetery.
    But I want to also mention to you that regarding the 75-
mile service area criteria and the 170,000-veteran population 
threshold, we are going to undertake a study to see if these 
are truly serving veterans. We realize that the Pike's Peak 
region and the large military community of that area merits us 
looking at our national policy, but also that cemetery itself.
    Senator Salazar. Well, I very much appreciate it and I look 
forward to working with you on the different alternative 
approaches. I know I sent a letter both to you and to Secretary 
Nicholson on this subject.
    Mr. Wannemacher. Right. We responded earlier this month.
    Senator Salazar. I appreciate that very much.
    Let me quickly move over to Senate Bill 1259, the 
transition bill that we have put in front of you. I know you 
haven't had a chance to study it and you haven't had a chance 
to evaluate it, but the essence of trying to get the VSOs more 
involved with us in helping us accomplish what I think we all 
agree is a lot of--to have transition for our veterans, I want 
you very much to take that goal into account because I think it 
is something that the VSOs are very supportive of and I think 
it is a bill that would provide some significant benefits to 
our veterans. As you look at it under your analysis, I would 
appreciate you taking a very thoughtful look at it, and I look 
forward to your response on that.
    Admiral Cooper. Sure.
    Senator Salazar. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Craig. Well, Ken, thank you very much.
    With additional testimony from you coming in on legislation 
that you have not yet had the opportunity to look at, we also 
may respond in writing with questions to you specific to your 
testimony. So we appreciate that relationship.
    Again, Admiral, thank you very much for being with us this 
morning. Mr. Thompson, Mr. Wannemacher, thank you.
    Senator Akaka. Mr. Chairman, may I ask----
    Chairman Craig. Certainly. Just a moment, if you would, 
please. Senator Akaka has some additional questions.
    Senator Akaka. I want to first thank Senator Salazar for 
his transition legislation. He has been an active participant 
on the Committee and listened to our panels of servicemembers 
talk about their needs as they transition from military to 
civilian life. He has looked at the needs of servicemembers in 
his State and presented legislation that attempts to ensure a 
seamless transition that we talk about in this Committee for 
those exiting the military, by making certain that VSOs have 
access to servicemembers who may need their services.
    So my quick question to you, Admiral Cooper, is can you 
mention something or talk about VA's inclusion of VSOs in the 
transition process?
    Admiral Cooper. We work with the VSOs. The VSOs, of course, 
and I can merely speak on the VBA side--are in each of our 
regional offices. Three or four of the VSO organizations, as 
many as six, will be at each one of the regional offices. We 
are working with them on a daily basis. We certainly welcome 
their ideas. I try to meet with the ones here in Washington on 
an occasional basis.
    I don't know--if you could be a little bit more definitive, 
I would be glad to address specific things. But again, I would 
say to you, I think we have a pretty good relationship with 
VSOs. I talk to them when I go out to each of our regional 
offices and I try to get them together just to make sure that 
we are doing things right. Our regional office directors, I 
think, have each been very, very understanding to work with the 
VSOs to ensure we are doing things well. And even a couple of 
offices where we have had some problems, I in fact think the 
VSOs and we are working very well together.
    But I would certainly be willing to listen to anything that 
they would suggest.
    Senator Akaka. Thank you very much.
    Admiral Cooper. I will be glad to answer any specifics, but 
that is about the most general answer I can give you.
    Senator Akaka. Thank you so much for being here, your 
responses, and that of your staff as well.
    Admiral Cooper. Thank you.
    Senator Akaka. I have other questions I will submit.
    Thank you, Mr. Chairman.
    Chairman Craig. Danny, thank you very much. Gentlemen, 
thank you.
    Now let me call our third panel up, and of course that is 
the veterans services organizations. We truly appreciate their 
presence today. Gentlemen, thank you for being with us. We have 
Steve Smithson, Assistant Director, Veterans Affairs and 
Rehabilitation, the American Legion; Quentin Kinderman, Deputy 
Director, National Legislative Service, Veterans of Foreign 
Wars; Rick Surratt, Deputy National Legislative Director, 
Disabled American Veterans; Mr. Carl Blake, Associate National 
Legislative Director, Paralyzed Veterans of America; and 
Richard Jones, National Legislative Director for AMVETS.
    Steve, we will start with you and work our way across. 
Again, thank you all for being here.

         STATEMENT OF STEVE SMITHSON, DEPUTY DIRECTOR, 
       VETERANS AFFAIRS AND REHABILITATION, THE AMERICAN 
                             LEGION

    Mr. Smithson. Mr. Chairman and Members of the Committee, I 
appreciate the opportunity to appear before you this morning to 
offer the American Legion's views on the numerous benefits 
bills, being considered by this Committee.
    The American Legion is generally pleased with the intent of 
these bills currently before the Committee. Each bill is 
addressed individually in my written testimony, and I ask that 
it be entered into the record.
    Due to the time constraints this morning, I am going to 
limit my oral remarks to S. 1271, the Prisoner of War Benefits 
Act of 2005, as we received the text of this bill after 
submitting our written statement to the Committee.
    As noted in our testimony, there are additional bills that 
we have not had time to analyze and we will submit for the 
record on a later date.
    S. 1271 would repeal the current requirement in Title 38 
U.S.C. that an individual had to have been detained or interned 
for a period of not less than 30 days in order to be entitled 
to presumptive service connection for certain prisoner of war 
disabilities. This bill would also expand the list of prisoner 
of war diseases presumed to be service connected currently set 
forth in Title 38, U.S.C. Section 1112(b), to include heart 
disease, stroke, diabetes type 2, and osteoporosis. It would 
also specifically authorize the Secretary of Veterans Affairs 
to create regulations adding or deleting diseases enumerated in 
Section 1112(b) on the basis of sound medical and scientific 
evidence, to include the recommendations from VA's Advisory 
Committee on Former Prisoners of War.
    The issue of the welfare and well-being of those veterans 
who have endured the hardship and trauma of being held as 
prisoners of war has long been one of the major concerns of the 
American Legion. We have actively supported improvements and 
benefits provided to these individuals and their survivors, and 
we are pleased to support the addition of four conditions 
specified in this bill to a list of those currently presumed to 
be service connected.
    It is hoped that this legislation will provide the impetus 
for action to further broaden the list of presumptive diseases 
and disabilities which former prisoners of wars are known to 
suffer from. Toward this end, we are encouraged that the bill 
recognizes and emphasizes the important role played by VA's 
Advisory Committee on Former Prisoners of War. This group of 
esteemed individuals, many of whom are themselves former POWs, 
provide the necessary mechanism and forum to evaluate the 
scientific and medical studies on former POWs to make 
appropriate recommendations to the Secretary regarding needed 
changes in VA's outreach, benefits, and medical care program 
for this community of veterans.
    Additionally, the American Legion has long supported the 
elimination of the arbitrary 30-day requirement for internment. 
Studies have shown that there can be long-lasting and diverse 
health effects resulting from even a relatively short period of 
confinement as a prisoner of war. Such findings are especially 
important considering the nature of today's warfare and the 
rather short period of confinement many American POWs have 
faced during the post-Vietnam era.
    This bill represents a solid step toward ensuring that 
former POWs receive the compensation and medical care they are 
clearly entitled to. However, in addition to those diseases 
that would be presumed service-connected, the American Legion 
recommends that the list also include chronic pulmonary disease 
where there is a history of forced labor in mines during 
captivity and generalized osteoarthritis, as differentiated 
from the currently listed disability of post-traumatic 
osteoarthritis.
    Mr. Chairman, the American Legion once again thanks you for 
the opportunity to present the views of our 2.8 million 
members. It is our position that while the legislation 
currently before the Committee tries to fix the many challenges 
facing the Department of Veterans Affairs and its mission to 
provide compensation and other benefits, they do not fix the 
overall problem with VA. Until adequate funding is provided to 
implement the various programs affected by the proposed 
legislation, VA will continue to struggle to provide benefits 
in a fair and timely manner. The Congress must do all it can to 
ensure that the proper financial support is available for the 
VA to institute the many long-awaited and needed changes being 
discussed today.
    The American Legion looks forward to working with the 
Committee on these important issues.
    That concludes my testimony.
    [The prepared statement of Mr. Smithson follows:]

Prepared Statement of Steve Smithson, Deputy Director, Veterans Affairs 
                and Rehabilitation, The American Legion

    The American Legion appreciates this opportunity to express our 
views on the many important bills being considered today by the 
Committee. We applaud the Committee for holding hearings on these vital 
issues.

S. 1234, ``TO PROVIDE A ``COST-OF-LIVING'' INCREASE, EFFECTIVE DECEMBER 
  1, 2005, IN COMPENSATION, AND INDEMNITY AND COMPENSATION, AND OTHER 
                                RATES.''

    The American Legion supports this annual cost-of-living adjustment 
in compensation benefits, including for Dependency and Indemnity (DIC) 
recipients. It is imperative that Congress annually considers the 
economic needs of disabled veterans and their survivors and provide an 
appropriate cost-of-living adjustment in their benefits.

      S. 1235, ``THE VETERANS BENEFITS IMPROVEMENTS ACT OF 2005''

Section 2
    Codify, in whole or part, scheduled-to-expire $250,000 increase in 
SGLI benefits.--The Act serves to make permanent the $150,000 insurance 
increase in the Servicemembers Group Life Insurance (SGLI) program from 
the current $250,000 coverage to a maximum of $400,000 already embodied 
in Public Law 109-13 signed by the President on May 11, 2005, but which 
has a termination date of September 30, 2005. The American Legion 
supports this increase as being an enhancement that brings the SGLI 
benefit more fully in line with the current economic needs of military 
families who suffer the loss of one who is in most cases their primary 
provider. The American Legion also views as in the best interests of 
the insured the Act's provision for requiring any lesser amounts of 
coverage elected by servicemembers to be only in increments of $50,000, 
rather then the previous $10,000. This change provides an incentive to 
make as great a use of the insurance benefit as possible in times of 
national emergency such as these.
    Extend and modify certain other SGLI modifications in the 
Supplemental Appropriations Act.--A further provision of this Act 
requires the Secretary of Defense to notify the insured's spouse should 
the insured at any time take action to either reduce the amount of 
coverage or to name a beneficiary other than the insured's spouse. This 
is not in the best interests of the insured AND does not earn the 
support of The American Legion. It has historically been the position 
of The American Legion that this type of insurance benefit is a special 
contract between the servicemember or veteran and the Federal 
Government, is a matter personal and sacrosanct to those who serve or 
have served the Nation in uniform, and that an insured's beneficiary 
information should not be released to third parties without the consent 
of the insured. We would support a change in the proposed Act to this 
end, so long as beneficiary changes remain a matter of confidence 
between the insured and the government.
    Extend to 2 years the timeframe within which discharged disabled 
veterans may convert their SGLI coverage into Veterans Group Life 
Insurance coverage.--The Act's proposal to extend to 2 years, from the 
present 1 year, the premium free period for totally disabled 
servicemembers in their initial coverage under the Veterans Group Life 
Insurance (VGLI) program, the program that enables them to directly 
continue their in-service coverage after leaving active duty, is 
acceptable to The American Legion. These veterans who leave service in 
such a disabled condition require as much time as possible to 
rehabilitate themselves to civilian life in many ways to include the 
financial, and this provision would ease their monetary burden of 
premium payments for a period more reasonable in consideration of their 
service disabled conditions.

Section 3
    Modify standards for ``hybrid-ARM'' adjustable rate home mortgages 
that VA will guarantee.--The American Legion is advised that Section 3 
of S. 1235 contains a technical drafting error. As written, this bill 
would strike certain language from section 3707(c)(4) of title 38, 
United States Code, which does not appear in that section. The American 
Legion defers comment on this section and requests the Committee to 
allow us to submit for the record when corrected.

  S. 917, ``A BILL TO MAKE PERMANENT AN EXISTING ``PILOT'' PROGRAM OF 
            DIRECT HOME LOANS TO NATIVE AMERICAN VETERANS''

    This legislation amends Title 38, United States Code, to make 
permanent the 1992 pilot program for direct housing loans to Native 
American veterans residing on trust lands. The American Legion supports 
the purpose of this loan program to give Native American veterans an 
opportunity to purchase, construct, or renovate homes on trust lands. 
The American Legion applauds the success this program has had in 
ensuring that qualified Native American veterans have the opportunity 
to purchase homes on trust land. Before this pilot program was 
implemented, commercial home loan institutions would not give 
individuals home loans on trust lands because of the unique 
relationship between the trust land and the Federal Government. The 
Government actually owns the land, but will lease the land to Native 
Americans for an extended period of time. However, with VA currently 
having the authority to make direct loans to Native Americans, there is 
no need to have commercial lending institutions involved in the lending 
process. Since the pilot program's inception, over 468 loans have been 
disbursed, resulting in a sharp rise of homeownership within the Native 
American veteran community. By making this program permanent and with 
continued outreach efforts by VA to the Native American veterans 
community, the number of home loans made to Native American veterans 
will continue to increase in the coming years.

S. 552, ``A BILL TO MAKE TECHNICAL CORRECTIONS TO THE VETERANS BENEFITS 
                       IMPROVEMENTS ACT OF 2004''

    The American Legion has no position or comment on this legislation.

  S. 1252, ``THE SERVICE-DISABLED VETERANS INSURANCE IMPROVEMENT ACT''

    As this legislation was not timely available to us, The American 
Legion defers comment and respectfully requests the Committee to allow 
us to submit for the record when text of the legislation is available.

         S. 151, ``THE VETERANS BENEFITS OUTREACH ACT OF 2005''

    This legislation requires VA to prepare an annual plan for outreach 
activities for the following year to include; identification of 
veterans not enrolled or registered with VA for benefits or services, 
plans to inform veterans and their dependents of modifications to VA 
benefits and services, and consultation with veterans service 
organizations, State and local education, training and employment 
agencies and other concerned organizations. Further required is an 
assessment of previous outreach plans and incorporation of 
recommendations to improve outreach and awareness activities. Except 
for veterans of operations Iraqi Freedom and Enduring Freedom, VA's 
outreach activities to veterans have been minimal, especially regarding 
healthcare benefits. The American Legion supports this bill, but we 
recommend that Congress mandate more aggressive outreach for all 
veterans who are eligible for VA services and benefits.

 S. 423, ``A BILL TO MAKE STILLBORN CHILDREN INSURABLE DEPENDENTS FOR 
         THE PURPOSES OF SERVICEMEMBERS GROUP LIFE INSURANCE''

    The American Legion supports this legislation as a logical 
extension of free dependent coverage, presently $10,000, which has been 
an intrinsic part of the SGLI program for years. We do not believe the 
small number of resulting claims would pose any burden to the SGLI 
program. This legislation would offer some needed assistance for the 
medical and funeral expenses incurred by military families who 
experience such a tragic loss.

   S. 551, ``A BILL TO DIRECT VA TO ESTABLISH A NATIONAL CEMETERY IN 
                         COLORADO SPRINGS, CO''

    VA's 2002 report, ``Future Burial Needs,'' provides an assessment 
of the number of additional cemeteries that will be required to ensure 
a burial option for 90 percent of veterans living within 75 miles of a 
national or State veterans cemetery beginning in 2005 and projecting 
out to 2020. In addition, the report identifies those areas in the 
United States with the greatest concentration of veterans whose burial 
needs are not served by a national or State veterans cemetery as well 
as an estimate of the costs to construct, staff and equip a new 
national cemetery. VA's current threshold for siting a new national 
cemetery is 170,000 veterans residing within a 75-mile radius of an 
epicenter. With 12 new national cemeteries currently authorized and in 
varying stages of development, VA is well on the way to meeting the 
demand projected by the report. Not surprisingly, these sites are 
located in high population density areas. Colorado Springs, Colorado 
does not meet these threshold criteria. The American Legion does do 
object, per se, to the establishment of a national cemetery in Colorado 
Springs; however, if enacted, this project should be funded outside the 
ongoing national cemetery expansion effort, the largest since the Civil 
War.

 S. 909, ``A BILL TO EXPAND ELIGIBILITY FOR GOVERNMENT-PROVIDED GRAVE 
          MARKERS FOR VETERANS BURIED IN PRIVATE CEMETERIES''

    Currently, the National Cemetery Administration provides headstones 
and markers for the graves of eligible veterans or eligible reservists 
who are buried in a private cemetery anywhere in the world regardless 
of whether the grave is already marked by a headstone or marker 
purchased at private expense. The veteran's death must have occurred on 
or after September 11, 2001, the onset of the Global War on Terror, for 
double marking. For eligible veterans who died before September 11, 
2001, a government headstone or marker may only be furnished if the 
grave is unmarked. This bill would allow VA to furnish markers for the 
graves of veterans who died on or after November 1, 1990, restoring the 
intent of the Veterans Education and Benefits Expansion Act of 2001, 
Public Law No.107-103, wherein the eligibility date was set at 
September 11, 2001 in conference committee. The American Legion agrees 
that this inequity should be rectified and we support this bill.

S. 1138, ``A BILL TO AUTHORIZE THE PLACEMENT OF A MONUMENT IN ARLINGTON 
 NATIONAL CEMETERY HONORING THE VETERANS WHO FOUGHT IN WORLD WAR II AS 
                  MEMBERS OF ARMY RANGER BATTALIONS''

    The American Legion has no position or comment on this legislation.

    S. 1259, ``THE VETERANS EMPLOYMENT AND TRANSITION SERVICES ACT''

    As this legislation was not timely available to us, The American 
Legion defers comment and respectfully requests the Committee to allow 
us to submit for the record when text of the legislation is available.

         S. 1271, ``THE PRISONER OF WAR BENEFITS ACT OF 2005''

    As this legislation was not timely available to us, The American 
Legion defers comment and respectfully requests the Committee to allow 
us to submit for the record when text of the legislation is available.
    Mr. Chairman, this concludes my testimony. I appreciate the 
opportunity to present The American Legion's views on these important 
and timely topics.
                                 ______
                                 
                     Addendum to Prepared Statement

    Mr. Chairman and Members of the Committee:
    The American Legion appreciates this opportunity to express our 
views on the following bills that were not timely available to us prior 
to the Committee hearing held on June 23, 2005. We applaud the 
Committee for holding hearings on these vital issues.

                 S. 1235, ``ADJUSTABLE RATE MORTGAGES''

Section 3
    This section amends Section 3707 of Title 38, United States Code, 
to allow VA to determine the annual adjustment of increase or decrease 
on interest rates on adjustable mortgages.
    The American Legion has always been a strong supporter of the 
Department of Veterans Affairs' Home Loan Guaranty program, which 
offers veterans a centralized, affordable and accessible method of 
purchasing homes in return for their services to this Nation. 
Therefore, The American Legion supports this legislation which will, 
with this technical change, lower the cost of VA guaranteed mortgages.

  S. 1252, ``THE DISABLED VETERANS INSURANCE IMPROVEMENT ACT OF 2005''

    S. 1252 increases the maximum overall coverage in the SDVI program 
to $50,000, with four-fifths of this being under the supplemental 
portion and basic coverage remaining the same. Currently, the SDVI 
program has a current overall maximum allowed life insurance coverage 
of $30,000, divided between the obsolete basic insurance amount of 
$10,000, and a strictly qualified supplemental insurance maximum of 
$20,000.
    The American Legion does not oppose this bill; however, it is our 
belief that this type of enhancement would have value to only a small 
portion of the disabled veterans insured in the program. Premiums on 
supplemental SDVI must be paid in all cases. SDVI premiums continue to 
be set as per the 1941 Commissioners Standard Ordinary Basic Table of 
Mortality and not a more current one such as the 1980 table. The effect 
of such a change would be a significantly lower premium structure for 
the disabled veteran. For most seriously disabled insured's, the 
premium cost of supplemental insurance is too high even at the present 
$20,000 level, so they forego a much-needed benefit to the later 
detriment of their beneficiaries.
    Providing a program enhancement that allows some to purchase 
additional insurance when most cannot afford what is already currently 
available does not provide what our disabled veterans need: a coverage 
maximum of $50,000 between the basic and supplemental portions of the 
SDVI program, for example, $25,000 each or $30,000 for basic coverage 
with the supplemental remaining as it now is. Such enhancement would 
permit the disability premium waiver provision of basic SDVI coverage 
to become much more of a realistic benefit to these service-disabled 
insured's and serve to more adequately and properly meet the needs of 
these veterans who often suffer from a high degree of disabilities from 
their military service to the Nation.

    S. 1259, ``THE VETERAN EMPLOYMENT AND TRANSITION SERVICES ACT''

Section 3
    Veteran-to-veteran pre-separation counseling.--The Act will allow 
representatives of military and veterans service organizations and 
representatives of military and veterans services agencies of states to 
provide pre-separation counseling and services to members of the armed 
forces who are scheduled, or are in the process of being scheduled, for 
discharge, release from active duty or retirement. The American Legion 
supports this legislation that will enhance the quality of the current 
Transition Assistance Program by ensuring service members are given a 
pre-separation briefing and by allowing veterans service organizations 
and representatives of veteran groups to participate in the process.

Section 4
    Separation Counseling and Transition Assistance.--The American 
Legion is in strong support of this legislation that requires that all 
separating, active-duty service members, including those from the 
Reserves and the National Guard, be given an opportunity to participate 
in Transition Assistance Program training not more than 180 days prior 
to their separation or retirement from the armed forces. The American 
Legion supports the measures to make the program mandatory and the 
implementation of performance measures for commanding officers to 
ensure that their service members attend the session. Numerous TAP 
counselors have voiced their frustrations to Legion representatives 
about commanding officers who refuse to allow their service members to 
attend TAP; however these same commanders ``will be the first ones 
sitting in my TAP classroom when it is their turn to separate from the 
Armed Forces.''

         S. 1271, ``THE PRISONER OF WAR BENEFITS ACT OF 2005''

    This bill would repeal the current requirement in Title 38 U.S.C. 
that an individual had to have been detained or interned for a period 
of not less than 30 days in order to be entitled to presumptive service 
connection for certain prisoner-of-war (POW) diseases. It would also 
expand the list of POW diseases presumed to be service-connected, 
currently set forth in Title 38 USC section 1112(b), to include heart 
disease, stroke, diabetes type 2 and osteoporosis. The legislation 
would also specifically authorize the Secretary of Veterans Affairs to 
create regulations adding or deleting diseases enumerated in section 
1112(b), on the basis of sound medical and scientific evidence, to 
include recommendations from VA's Advisory Committee on Former 
Prisoners of War.
    The issue of the welfare and well being of those veterans who have 
endured the hardship and trauma of being held as a POW has long been 
one of the major concerns of The American Legion. To ensure that the 
Government of the United States fulfills its obligation to these brave 
men and women, The American Legion has actively supported improvements 
in benefits provided to these individuals and their survivors and we 
are pleased to support the addition of the four conditions, specified 
in this bill, to the list of those currently presumed to be service-
connected. It is hoped this legislation will provide the impetus for 
action to further broaden the list of presumptive diseases and 
disabilities, which former POWs are known to suffer from. Toward this 
end, we are encouraged that the bill recognizes and emphasizes the 
important role played by VA's Advisory Committee on Former Prisoners of 
War. This group of esteemed individuals, many of who are themselves 
former POWs, provide the necessary mechanism and forum to evaluate 
scientific and medical studies on former POWs to make appropriate 
recommendations to the Secretary regarding needed changes in VA's 
outreach, benefits, and medical care program for this community of 
veterans.
    Additionally, The American Legion has long supported the 
elimination of the arbitrary 30-day requirement for internment. Studies 
have shown there can be long lasting adverse health effects resulting 
from even a relatively short period of confinement as a prisoner of 
war. Such findings are especially important considering the nature of 
today's warfare and the rather short period of confinement most 
American POWs have faced during the post-Vietnam era.
    This legislation represents a solid step toward ensuring former 
POWs receive the compensation and medical care to which they are 
clearly entitled. However, in addition to those diseases that would be 
presumed service-connected, The American Legion recommends that the 
list also include chronic pulmonary disease, where there is a history 
of forced labor in mines during captivity, and generalized 
osteoarthritis, as differentiated from the currently listed disability 
of post-traumatic osteoarthritis.

    Chairman Craig. Steve, thank you very much.
    Now we will turn to you, Quentin. Please proceed.

   STATEMENT OF QUENTIN KINDERMAN, DEPUTY DIRECTOR, NATIONAL 
  LEGISLATIVE SERVICE, VETERANS OF FOREIGN WARS OF THE UNITED 
                             STATES

    Mr. Kinderman. Thank you, Mr. Chairman.
    Mr. Chairman, Members of the Committee, on behalf of the 
2.4 million members of the Veterans of Foreign Wars of the 
United States and our auxiliaries, I would like to thank you 
for the opportunity to present our views here today.
    We generally support the entire list of bills that is 
offered here. In the interests of brevity, I think I would 
defer to our written statement for specifics on those bills and 
a supplemental statement which we will have to you in a few 
days on the four bills that we are still considering at this 
point in time.
    Chairman Craig. Good enough.
    Mr. Kinderman. I would like to comment, however, on S. 151, 
the Veterans Benefits Outreach Act of 2005. We were very 
pleased to hear the VA testify in support of this bill, and we 
would like to make a suggestion that a good place to start on 
this plan would be to consider veterans that have been service-
connected--Vietnam veterans service-connected for diabetes in 
recent years, on a presumption that was enacted into regulation 
early in this Administration.
    Our understanding is there are now about 200,000 Vietnam 
veterans who are service-connected under this presumption for 
diabetes. The typical rate for uncomplicated diabetes is 40 
percent. Two hundred thousand veterans is about, give or take, 
a billion dollars a year. We think that since the VA knows a 
great deal about these veterans and that diabetes is a 
progressive disease that is in a lot of ways controllable with 
aggressive medical care, that we would like to see a 
partnership between the Veterans Benefits Administration and 
the Veterans Health Administration.
    You spoke earlier of the financial tradeoffs within 
legislation. I would like to suggest that 200,000 veterans at 
40 percent is about a billion dollars a year; 200,000 veterans 
at 100 percent, which would happen if these veterans don't 
receive excellent and aggressive medical care, is about $6 
billion a year. So there is clearly an advantage, I think, to 
reaching out to these veterans now. We know who they are, we 
know where they live, and we know their medical information.
    Likewise, I would make the same analogy for returning 
combat veterans. It is a very difficult war. Our servicemen are 
doing multiple tours and urban combat. PTSD, I think, is a real 
risk. If we can reach them now, I think we can avoid the 
chronicity that we see, perhaps, in veterans of early periods 
of war.
    So the VFW would suggest that an aggressive working 
partnership within VA between the medical side and the benefits 
side, as part of this outreach, would be a good idea and would 
be in the best interest of all these veterans.
    That concludes my testimony. I would be glad to respond to 
any questions.
    [The prepared statement of Mr. Kinderman follows:]

  Prepared Statement of Quentin Kinderman, Deputy Director, National 
   Legislative Service, Veterans of Foreign Wars of the United States
    Mr. Chairman and Members of the Committee:

    On behalf of the 2.4 million members of the Veterans of Foreign 
Wars of the United States (VFW) and our Auxiliaries, I would like to 
thank you for the opportunity to present our views on the following 
veterans benefits legislation.
    VFW supports S. 1234, legislation that would provide a cost-of-
living adjustment to compensation, clothing allowance, and dependency 
and indemnity compensation (DIC) rates for veterans and their families. 
Maintaining the purchasing power of these benefits for service-
connected veterans, their dependents, and survivors is very important, 
especially to those who have limited or no other sources of income. VFW 
urges the Congress to approve this legislation.
    We would also like to lend our support to S. 1235, The Veterans 
Benefits Improvements Act of 2005.
    Section 2 would increase Servicemembers Group Life Insurance (SGLI) 
and Veterans Group Life Insurance (VGLI) from $250,000 to $400,000 as 
enacted in Public Law 109-13.
    The VFW fully supported the provisions providing an increase in 
SGLI and VGLI put forth in the Supplemental Appropriation. We believe 
that the increase in coverage would go a long way toward helping the 
survivors of servicemembers and veterans financially.
    Additionally, it replaces the requirement for spousal approval of 
insurance coverage and modifications with good faith notification of 
spouse. VFW supports this change.
    It would also extend, for 1 year, the period within which veterans 
can convert their SGLI coverage to VGLI coverage. It would allow one 
form to serve as both SGLI extension and VGLI application.
    We applaud this change and have testified in the past on the need 
for more time for conversion of SGLI to VGLI, as well as for a 
simplified application form for insurance coverage.
    Section 3 would make a technical but necessary change to VA's home 
loan guarantee program. Current regulations preclude certain mortgage 
vendors from providing the entire package of VA home loans at 
attractive rates to veterans. The small change in this law would make 
it easier for these vendors to provide a few types of Adjustable Rate 
Mortgages at a lower rate to the veteran and increase his or her 
options when it comes time to finance their house.
    VFW supports this provision because it will give a veteran more 
choices when selecting a loan, and may provide a viable alternative to 
some of the loans being offered, enabling more veterans to fulfill the 
American dream by purchasing a home.
    VFW has no objection to S. 552, legislation that would make 
technical and conforming corrections to the Veterans Improvement Act of 
2004.
    VFW supports S. 917, which would amend title 38, U.S.C. to make the 
pilot program for direct housing loans for Native American veterans 
permanent. The American dream of homeownership is often very difficult 
for veterans who live in areas of the country where Federal law 
prohibits lenders from taking possession of property deemed ``native 
trust lands.'' The Native American Veteran Housing Loan Program offers 
a solution in a Memorandum of Understanding between VA and the Bureau 
of Indian Affairs (BIA).
    Under this VA-administered program, Native American veterans can 
qualify for direct loans to build or purchase homes on such lands. By 
making this program permanent you will offer the loan guaranty VA 
benefit to those who have honorably served and reside on native trust 
lands.
    The VFW supports S. 151, The Veterans Benefits Outreach Act of 
2005. This legislation would amend Title 38, U.S.C., to require an 
annual plan on VA outreach activities. We commend the VA for its 
current and on-going outreach activities, but as Senator Coleman and 
Senator Pryor mention in support of their legislation, more can be done 
to identify and inform those eligible for programs administered under 
the VA. This is especially important as our Armed Forces return from 
the war theaters of Afghanistan and Iraq.
    VFW is especially concerned that veterans who are already service-
connected for serious and, if untreated, potentially progressive 
illnesses, including diabetes in Vietnam veterans and PTSD in returning 
combat veterans, may not be receiving proper medical care from the VA 
medical system. Providing this care is, and should be, a high priority 
at VA. Since these veterans are known to VA, outreach would be cost 
effective and efficient, and could greatly enhance the quality of life 
of these veterans.
    VFW has no objection to S. 423, legislation which would amend title 
38, U.S.C., to make a stillborn child an insurable dependent for 
purposes of the SGLI program. The loss of a child during pregnancy is 
very difficult and tragic event for a family. This provision would 
provide some measure of support at a troubling time for military 
families.
    The VFW does not object to S. 551, legislation that would direct VA 
to establish a national cemetery in Colorado Springs, Colorado. 
However, we do support the planning mechanism that VA has established 
with regard to selection of new national cemetery constructionsites.
    VFW strongly supports S. 909, legislation that would expand 
eligibility for government markers for marked graves of veterans at 
private cemeteries. Public Law 107-103 included a provision to allow 
the VA to furnish headstones or markers for veterans buried in private 
cemeteries as long as the death occurred on or after September 11, 
2001. The law does not include veterans who died before that date. Last 
year a provision allowing for an amendment which would have corrected 
this inequity was approved by both House and Senate as a part of The 
Veterans' Benefits Enhancements Act of 2003, but unfortunately was not 
enacted into law.
    Congress has endorsed restoring the right of every veteran to 
receive a grave marker that recognizes and pays tribute to their 
service for a grateful Nation. This legislation would amend the current 
law and include those veterans who have died since November 1, 1990. 
VFW Resolution 702 calls on Congress to correct this inequity and allow 
those who died between November 1, 1990 and September 10, 2001 to be 
honored with a government headstone or marker.
    Mr. Chairman and Members of the Committee, this concludes VFW's 
testimony. We again thank you for including us in today's important 
discussion, and I will be happy to respond to any questions you may 
have. Thank you.

    Chairman Craig. Quentin, thank you. And those are some 
excellent suggestions.
    Now let me turn to Rick Surratt. Please proceed.

    STATEMENT OF RICK SURRATT, DEPUTY NATIONAL LEGISLATIVE 
              DIRECTOR, DISABLED AMERICAN VETERANS

    Mr. Surratt. Mr. Chairman, thank you for the opportunity to 
State the DAV's views on the several bills before the Committee 
today.
    All of them would make positive improvements in programs 
for veterans or servicemembers. Of particular interest to the 
DAV are those bills dealing with benefits provided on account 
of service-connected disability. We therefore support and 
appreciate your introduction of S. 1234, a bill to adjust 
compensation rates and the clothing allowance to cover the 
increase in the cost of living.
    Another program where an adjustment is needed is in the 
Service-Disabled Veterans Life Insurance program. We are 
pleased that Senator Akaka's bill, S. 1252, would make a modest 
improvement by increasing the amount of supplemental life 
insurance available to totally disabled veterans on an SDVI 
policy. Current law allows a totally disabled veteran to 
supplement the $10,000 life insurance in the base policy by 
purchasing additional coverage up to $20,000. S. 1252 would 
increase the amount of the supplemental insurance available to 
$40,000. This increase would make the life insurance coverage 
more commensurate with the economic impact of a veteran's death 
upon his or her survivors. Though this is a positive step, it 
serves as a reminder of the inadequacy of a $10,000 maximum 
life insurance available to all other veterans under the SDVI 
policies.
    We hope to see Congress act on legislation to correct this 
deficiency in the SDVI plan. We also hope to see Congress act 
to adjust the premium rates charged for SDVI. As you know, 
premium rates for life insurance are based on mortality 
experience. Currently, SDVI rates are still based on the 
shorter life expectancy in mortality tables from 1941. That 
keeps SDVI premiums too high and defeats the purpose of the 
SDVI program, which is to make life insurance available to 
service-connected disabled veterans at rates comparable to 
rates commercial insurers charge healthy persons.
    Another matter that always wants the Committee's foremost 
attention is provisions for service connection of disabilities 
related to the extreme conditions suffered by prisoners of war. 
The DAV always feels a special responsibility to advocate 
beneficial adjustments to the provisions for service-connection 
of diseases that may be associated with the POW experience. The 
DAV supports S. 1271, Senator Murray's bill, to strengthen the 
provisions for presuming service connection of certain diseases 
associated with the hardships, deprivation, and abuse suffered 
by POWs. We urge the Committee to act favorably on this bill.
    Mr. Chairman, we appreciate the Committee's consideration 
of these bills and our views on them. That concludes my 
statement, and I would be happy to answer any questions the 
Committee may have.
    [The prepared statement of Mr. Surratt follows:]

    Prepared Statement of Rick Surratt, Deputy National Legislative 
                  Director, Disabled American Veterans

    Mr. Chairman and Members of the Committee:
    I am happy to have the opportunity to appear before you to present 
the views of the Disabled American Veterans (DAV) on the various bills 
under consideration in today's hearing. Under its congressional 
charter, the DAV's legislative mission is focused on benefits and 
services provided to veterans on account of their service-connected 
disabilities. We are therefore pleased to support the bills insofar as 
they fall within that scope, but we are also pleased to observe and 
acknowledge the other beneficial purposes of these bills, which address 
issues that transcend our organizational mission and legislative focus, 
but which are of importance to many veterans and some of our members 
nonetheless.

                                S. 1234

    The Veterans' Compensation Cost-of-Living Adjustment Act of 2005 
would increase the rates of disability compensation, dependency and 
indemnity compensation (DIC), and the annual clothing allowance by the 
percentage of increase in the cost of living as measured by the 
Consumer Price Index. The increase would be effective December 1, 2005.
    Adjustment annually for increases in the cost of living are 
necessary to avoid loss in the buying power of these benefits for 
disabled veterans and their survivors. The DAV supports S. 1234.

                                S. 1235

    The Veterans' Benefits Improvement Act of 2005 would retain as 
permanent amendments certain temporary provisions in the 
Servicemembers' Group Life Insurance (SGLI) and Veterans' Group Life 
Insurance (VGLI) programs. Principally, these provisions increase the 
maximum life insurance coverage for servicemembers and veterans. In 
current law, they are set to expire September 30, 2005. The Act would 
also extend from 1 year to 2 years the time for conversion of an SGLI 
policy to a VGLI policy. In addition, it would remove the fixed 
limitation on the range of the annual adjustment of the interest rate 
for hybrid adjustable rate mortgages.
    Among other things, Public Law 109-13 increased the insurance 
coverage under SGLI for a servicemember from $250,000 to a maximum of 
$400,000, or such lesser amount as the member may elect in an amount 
evenly divisible by $50,000. It made a corresponding increase in the 
coverage under VGLI from $250,000 to $400,000. This law amended 
provisions for SGLI to require the Secretary of Defense to notify the 
spouse of a member's election to decline coverage or to be insured in 
an amount less than the maximum $400,000 or notify a beneficiary or 
next of kin of such election in the case of an unmarried member. It 
added a requirement that a member with a spouse must obtain written 
consent of the spouse to elect no coverage or to be insured for less 
than the maximum amount. It added a requirement that a member who 
elects to insure a spouse for an amount less than $100,000 must do so 
in an amount evenly divisible by $10,000 and only with written consent 
of the spouse. It created entitlement to insurance of $150,000 on the 
life of an uninsured member who dies as a result of wounds, injuries, 
or illnesses incurred in a combat operation or zone or who formerly 
served in such an operation or zone and whose death is determined to be 
the direct result of injury or illness incurred or aggravated while so 
serving. For such member who was insured under SGLI, the law created 
increased entitlement to a maximum of $400,000. These amendments were 
to be effective the first day of the first month that begins more than 
90 days after May 11, 2005, and are to expire September 30, 2005.
    S. 1235 adds a new requirement that the Secretary of Defense must 
make a good faith effort to notify the spouse if a member elects to 
reduce coverage on an insured member or name a beneficiary other than a 
spouse. Under this new provision, failure to notify will not affect 
validity of election by a member. No notice under this provision would 
be required where the member marries or remarries after making an 
election to reduce coverage or to name another beneficiary. The bill 
would permanently extend the $400,000 maximum coverage for the 
servicemember. It would retain provisions that require the 
servicemember to elect an amount evenly divisible by $50,000 for 
himself if he or she chooses coverage less than the maximum and an 
amount evenly divisible by $10,000 for a member who elects to insure a 
spouse for an amount less than $100,000. S. 1235 would make the 
$400,000 maximum coverage for VGLI permanent and would, as noted, allow 
2 years, instead of 1, for conversion of a policy of SGLI to VGLI. This 
bill's provisions would become effective upon the expiration of the 
related temporary provisions added by Public Law 109-13.
    The bill would also amend section 3707A(c)(4) of title 38, United 
States Code, to authorize a single annual interest rate adjustment in 
such percentage as the VA Secretary may prescribe for a hybrid 
adjustable rate mortgage. Existing provisions limit any such increase 
or decrease to 1 percentage point.
    The DAV has no mandate from its membership on these matters, but we 
have no objection to enactment of S. 1235.

                                 S. 552

    This bill would make technical amendments to section 2101 of title 
38, United States Code, to restore provisions that authorize specially 
adapted housing assistance for certain active duty members of the Armed 
Forces. In amending the law last year to extend eligibility for housing 
assistance to veterans suffering from loss, or loss of use, of both 
upper extremities at or above the elbow, Congress inadvertently deleted 
provisions that authorize housing assistance to active duty members who 
have service-connected disabilities qualifying for this assistance. 
This bill would add the omitted provisions and make conforming 
amendments.
    Providing assistance to these most seriously disabled 
servicemembers who need special home adaptations to enable mobility 
within the home is an important part of assisting them with the 
transition from institutionalization to independent living in their own 
homes, in their own civilian communities. Congress should move promptly 
to correct this unintended repeal of authority to provide special 
adapted housing to separating servicemembers. Providing this benefit at 
the earliest possible time is advantageous while requiring these 
disabled veterans to wait until they have been discharged and attain 
veteran status to begin the process of obtaining suitable housing can 
be counterproductive.

                                 S. 917

    This bill would amend sections 3761 and 3762 of title 38, United 
States Code, to replace provisions for a temporary pilot program for 
direct housing loans to Native American veterans with authority for a 
permanent program.
    Native American veterans face special impediments to obtaining 
conventional financing for the purchase or construction of homes 
because they do not own the land, and trust lands cannot be used to 
secure the loans. Though the DAV has no resolution calling for this 
legislation, we firmly believe Native Americans who have served in our 
Armed Forces should have equal opportunities to share in the American 
dream of home ownership, and we appreciate the necessity of special 
provisions to enable VA to provide them direct loans.
    We have no objection to the passage of this meritorious 
legislation.

                                S. 1252

    This bill would increase the amount of supplemental life insurance 
available to totally disabled veterans under the Service-Disabled 
Veterans' Insurance program (SDVI). Currently, totally disabled 
veterans may acquire additional coverage of up to $20,000 to supplement 
the $10,000 coverage of the base policy. Under S. 1252, these veterans 
could supplement the base SDVI policy with added coverage up to 
$40,000.
    The DAV supports S. 1252. This would be a modest step toward 
increasing life insurance coverage to an amount more in line with 
today's income replacement needs for qualifying totally disabled 
veterans. However, we hope Congress remains mindful of the inadequacy 
of the $10,000 maximum coverage available under the base policy. All 
other service-disabled veterans are limited to a maximum $10,000 
policy. This maximum is the same as set in 1917 when Congress first 
provided life insurance to servicemembers, who would later be insured 
under the same policies as veterans.
    We also hope Congress will remain mindful of the detrimental effect 
of excessive premiums now charged for SDVI. Congress created the SDVI 
program to make life insurance available and affordable to service-
disabled veterans who would otherwise be uninsurable or who would have 
to pay higher than standard rates because of their service-connected 
disabilities. The rates for SDVI were to be comparable to the rates for 
healthy persons in the commercial life insurance market. However, 
because the law has not been updated, today's premiums are still 
indexed to 1941 mortality tables. Congress needs to act promptly to 
modernize the SDVI program with more adequate life insurance coverage 
and more reasonable premiums.

                                 S. 151

    The Veterans Benefits Outreach Act of 2005 would require the 
Secretary of Veterans Affairs to prepare annual plans for VA outreach 
activities. These plans must include measures to identify veterans who 
are not enrolled or registered for benefits or services with the 
Department and to inform veterans and their dependents of modifications 
to benefits and services, including eligibility for medical and nursing 
care and services. In development of a plan, the Secretary must consult 
with veterans organizations recognized under section 5902 of title 38, 
United States Code, and others involved in programs or services 
utilized by or extended to veterans. In developing a plan, the 
Secretary must also take into account successes and failures of 
measures employed in previous plans and incorporate recommendations for 
the improvement of veterans outreach activities included in a report 
submitted to Congress by the Secretary pursuant to the Veterans 
Benefits Improvement Act of 2004.
    The mission of VA would be incomplete and its programs would be 
ineffective if it only passively received applications from those who 
may by chance learn of benefits available to them. When veterans and 
their programs are brought together, utilization is optimized, 
economies of scale are attained, and program goals are achieved. 
Program outcomes are improved. An essential part of VA's mission is 
therefore to seek out and educate veterans about the special programs 
created for their benefit, and incidentally, the ultimate benefit of 
society. Thus, VA must maintain, and adjust based on experience, an 
active, ongoing, and systematic project to create awareness among 
potentially eligible veterans of the special benefits and services 
provided for them. This bill would reinforce the authority and 
congressional mandate for VA outreach and would benefit veterans 
suffering from service-related disabilities who may be unaware of the 
range of benefits and services available to them. The DAV supports the 
bill.

                                 S. 423

    This bill would include a stillborn child as an ``insurable 
dependent'' under an SGLI policy. The DAV has no objection to 
legislation for this purpose.
    We note that the bill would expand the definition of ``insurable 
dependent'' in section 1965(10) of title 38, United States Code, by 
adding stillborn children to the list. We also note that the bill does 
not similarly amend section 1967(a)(3)(A) of title 38, United States 
Code, to add stillborn child and the corresponding amount of insurance 
to the list of insured's. However, that would apparently be unnecessary 
inasmuch as the term ``child'' in section 1967(a)(3)(A)(iii) would now 
include a stillborn child as a result of this bill's technical 
conforming amendment of section 101(4)(A) by expanding its cross 
reference to the definition in section 1965 to include a stillborn 
child. Nonetheless, the drafting seems somewhat circuitous with 
consequent superfluous provisions.
    Under section 101(4)(A), the definition for ``child'' means 
essentially a child who is dependent upon the veteran, with a 
parenthetical exception for chapter 19 of title 38 (life insurance 
programs). Within that parenthetical exception to the general 
definition of a child is another parenthetical--an exception to the 
exception--which makes a child for purposes of section 1965 a child 
within the meaning of the general definition of section 101(4), that 
is, a dependent child. The conforming amendment in S. 423 would amend 
the definition of child in section 101(4) to include a stillborn child 
for purposes of section 1965, but in so doing would essentially define 
a child as including a stillborn child ``who is unmarried and--(i) who 
is under the age of 18 years; (ii) who, before obtaining the age of 18 
years, became permanently incapable of self-support; or (iii) who, 
after attaining the age of 18 years and until completion of education 
or training (but not after attaining the age of twenty-three years), is 
pursuing a course of instruction at an approved educational 
institution.'' Additionally, under section 1968(a)(5) of title 38, 
United States Code, life insurance coverage for a stillborn child would 
continue for ``120 days after the termination of the dependent's status 
as an insurable dependent of the member.''
    Perhaps the conforming amendments could be revised to improve upon 
the congruity of the various statutory provisions.

                                 S. 551

    This bill would require the Secretary of Veterans Affairs to 
establish a national veterans cemetery in the metropolitan area of 
Colorado Springs, Colorado, and would require the Secretary to consult 
with appropriate State and local officials in site selection, and with 
the Administrator of General Services or other appropriate Federal 
officials of the United States on the availability of Federal lands in 
that area suitable for those purposes. The bill would also provide 
authority for acceptance of donated land and directs the Secretary to 
report to Congress his timetable for construction and an estimate of 
the costs of establishing the cemetery.
    The DAV's members have adopted no resolution on this issue, but we 
have no objection to the enactment of this legislation that would make 
burial space available for veterans in the service area of the new 
cemetery.

                                 S. 909

    This bill would amend effective date provisions for Government 
grave marker eligibility in the case of a veteran whose grave is marked 
by a privately acquired marker.
    Prior to amendments in 1990, VA could provide a grave marker for an 
``unmarked'' grave, or in lieu of furnishing a grave marker for such 
grave, could reimburse for a grave marker acquired privately. The 1990 
legislation removed authority for reimbursement of the cost of a non-
Government marker. By section 502(a) of the Veterans Education and 
Benefits Expansion Act of 2001, Public Law 107-103, Congress authorized 
VA to provide a Government marker ``notwithstanding that the grave is 
marked by a headstone or marker furnished at private expense.'' 
Eligibility for a marker under this amendment was for individuals dying 
on or after the date of enactment of the law, which was December 27, 
2001. Section 203(b) of the Veterans Benefits Act of 2002, Public Law 
107-330, amended this effective date to apply to individuals dying on 
or after September 11, 2001. The current bill would further amend the 
effective date to extend eligibility to individuals who died on or 
after November 1, 1990. The bill would ensure that all veterans who 
died after November 1, 1990, receive a grave marker where one is 
desired.
    While the DAV has no resolution on this issue, the bill would 
accomplish a beneficial purpose, and we certainly have no objection to 
its passage.

                                S. 1138

    By amendment to section 2409 of title 38, United States Code, this 
bill would authorize the Secretary of the Army to place a monument in 
Arlington National Cemetery to honor veterans who fought in World War 
II as members of U.S. Army Ranger battalions. The bill would give the 
Army Secretary exclusive authority to approve the design of and site 
for the monument. The DAV has no opposition to enactment of this bill.

                                S. 1259

    The Veterans' Employment and Transition Services Act would extend 
the period for reporting by the Secretary of Veterans Affairs on the 
disposition of cases recommended for equitable relief. The Act would 
also direct the Secretary of Defense and the Secretary of Homeland 
Security to carry out a program to facilitate participation of veterans 
service organizations and other organizations in pre-separation 
counseling and services regarding veterans benefits, employment and 
training assistance, other transitional assistance, and medical care 
through VA. The bill would require that this separation counseling and 
transition assistance be provided by personnel not responsible for 
encouraging servicemembers to re-enlist.
    The bill would ensure access by the DAV and other organizations to 
military facilities for the purpose of counseling and aiding 
servicemembers transitioning to civilian life. The DAV supports its 
passage.

                                S. 1271

    The Prisoners of War Benefits Act of 2005 would repeal the existing 
requirement that a former prisoner of war (POW) must have been interned 
a minimum of 30 days to qualify for the presumption of service 
connection in the case of several diseases for which the presumption 
applies. It would add heart disease, stroke, type 2 diabetes, and 
osteoporosis to the list of conditions that may be presumed service 
connected in the case of a POW. It would add authority for the 
Secretary of Veterans Affairs to administratively add to the list of 
presumptive diseases through rulemaking where the Secretary determines 
such presumption is warranted by reason of a demonstrated positive 
association between the disease and the experience of being a prisoner 
of war. A positive association would be deemed demonstrated where 
credible evidence of an association is at least equal to credible 
evidence against an association. In making determinations regarding the 
addition of diseases to the list, the Secretary is to consider 
recommendations from the Advisory Committee on Former Prisoners of War 
and is to consider other acceptable medical and scientific evidence. 
The bill requires the Secretary to make such a determination within 60 
days after a recommendation from the POW Advisory Committee and to 
issue a proposed rule within 60 days of a determination that a 
presumption of service connection is warranted. Not later than 60 days 
after a determination that a presumption is not warranted, the 
Secretary would be required to publish a notice in the Federal Register 
of such determination with an explanation of the basis for the 
determination. The bill also prescribes procedures for removal of 
diseases from the list where warranted and would preserve service 
connection for purposes of compensation and DIC in the case of diseases 
removed from the list.
    In testimony on similar provisions in bills last year, the VA 
witness acknowledged that the conditions of internment could likely be 
associated with the diseases this bill would add to the list subject to 
presumptive service connection.
    This bill is consistent with the DAV's resolution calling for 
expansion of the diseases recognized for presumption of service 
connection as associated with the circumstances of the prisoner of war 
experience. The DAV supports this measure to improve and expand the 
benefits for veterans who are among our most deserving, former 
prisoners of war.

                                CLOSING

    The several bills before the Committee today would enhance, expand, 
or make beneficial adjustments to benefits and services for veterans. 
The DAV appreciates the ongoing efforts of this Committee to improve 
and strengthen veterans programs, as well as the efforts and continuing 
support of the sponsors of these bills.

    Chairman Craig. Rick, thank you very much for that 
testimony.
    Carl, we will now turn to you. Thank you.

    STATEMENT OF CARL BLAKE, ASSOCIATE NATIONAL LEGISLATIVE 
            DIRECTOR, PARALYZED VETERANS OF AMERICA

    Mr. Blake. Mr. Chairman, Ranking Member Akaka, PVA would 
like to thank you for the opportunity to testify today on the 
proposed legislation. I will limit my remarks to only a couple 
of the bills under consideration.
    PVA supports the technical corrections made by S. 552, 
which would correct the mistake made by legislation passed in 
the previous Congress. The provisions in question from Public 
Law 108-454 were intended to extend eligibility for the 
specially adapted housing grant to servicemembers who 
experience the loss or loss of use of both upper extremities at 
or above the elbows. PVA supported this legislation as it was 
enacted. However, the law apparently excluded servicemembers 
who experienced these severe disabilities and who remained on 
active duty from having access to this specially adapted 
housing grant. Ensuring access to this grant for severely 
disabled veterans while still on active duty was a key 
initiative of PVA during the 108th Congress. Many of our 
members are the highest-end users of the specially adapted 
housing grant.
    PVA fully supports the Veterans Benefits Outreach Act. PVA 
and other veterans service organizations have previously 
expressed concern about VA outreach efforts to veterans. Only a 
couple of years ago a senior VA official sent a memorandum out 
to medical centers encouraging them to not actively reach out 
to veterans and advertise the health services available to 
them. This was done in light of ever-tightening budgets. PVA 
finds such actions deplorable and shameful. We believe it is 
the responsibility of the VA to inform veterans and their 
families of the benefits and services available to them, and we 
appreciate the VA's support for this legislation.
    PVA supports the provisions of S. 1259, the Veterans 
Employment and Transition Services Act. This legislation 
recognizes the valuable roles that representatives of veterans 
and military services organizations and the related State 
agencies can play in the transition for servicemembers from the 
military.
    PVA particularly appreciates the emphasis placed on 
targeting not only active duty military, but on the National 
Guard and Reserve at the armories and at family support 
centers, as well as at military medical facilities. Recognizing 
the fact that many National Guardsmen and Reservists left the 
civilian world to begin with, we cannot assume that it will 
automatically be easy for them to return to civilian life.
    The Prisoner of War Benefits Act would repeal the 
requirement that a POW be held captive for at least 30 days in 
order to receive a presumption of service connection for the 
purposes of receiving benefits. This issue was first considered 
last year, after American service personnel who were held in 
Iraq during the early stages of the war were released or 
rescued after less than 30 days of internment. It seems only 
fair that any POW, regardless of time in captivity, be 
recognized as being eligible for service-connected benefits. As 
such, PVA supports this legislation.
    Mr. Chairman, I would like to thank you again for the 
opportunity to testify. I would look forward to working with 
this Committee to ensure that we pass meaningful legislation 
that will assist veterans in achieving all the benefits that 
they have earned and deserve. I would be happy to answer any 
questions that you might have.
    [The prepared statement of Mr. Blake follows:]

   Prepared Statement of Carl Blake, Associate National Legislative 
                Director, Paralyzed Veterans of America

    Chairman Craig, Ranking Member Akaka, Members of the Committee, 
Paralyzed Veterans of America (PVA) would like to thank you for the 
opportunity to testify today on the S. 1234, the ``Veterans 
Compensation Cost-of-Living Adjustment Act of 2005;'' S. 1235, the 
``Veterans' Benefits Improvements Act of 2005;'' S. 552; S. 917; the 
``Service-Disabled Veterans Insurance Improvement Act;'' S. 151, the 
``Veterans' Benefits Outreach Act of 2005;'' S. 423; S. 551; S. 909; S. 
1138; S. 1259, the ``Veterans Employment and Transition Services Act;'' 
and the ``Prisoner of War Benefits Act of 2005.'' PVA appreciates the 
efforts of the Committee to address the benefits needs of the veterans 
who have served and sacrificed so much for this country.

  S. 1234, THE ``VETERANS COMPENSATION COST-OF-LIVING ADJUSTMENT ACT''

    PVA supports S. 1234, a bill to increase the rates of compensation 
for veterans with service-connected disabilities and the rates of 
dependency and indemnity compensation for certain disabled veterans. As 
we have done in the past, we oppose again this year the provision 
rounding down the cost-of-living adjustment to the nearest whole 
dollar.

          S. 1235, THE ``VETERANS' BENEFITS IMPROVEMENT ACT''

    Section 2 of the proposed legislation would require the Secretary 
of Defense to make a ``good-faith effort'' to notify the 
servicemembers' spouse or next of kin if he or she executes certain 
options in the Servicemembers' Group Life Insurance (SGLI) plan. These 
options include choosing an amount less than the maximum insurable 
amount or designating a beneficiary other than the spouse or next of 
kin.
    We do not believe that this provision addresses any problem that 
exists. It seems that this legislation is meant to prevent a serviceman 
or woman from making a decision that might ultimately have a negative 
impact on his or her family. However, we believe that this proposal is 
unnecessary because the servicemember has the individual right to make 
any election he or she chooses with regards to the life insurance plan. 
It should not be the responsibility of the Secretary to get involved 
with the effect of a servicemember's election on his or here family. 
Despite these concerns, PVA does not object to the legislation.
    PVA does support the provisions that increase the maximum SGLI 
payments as well as the maximum Veterans' Group Life Insurance payments 
from $250,000 to $400,000. It is especially important that the 
servicemembers' families as well as veterans' families receive adequate 
life insurance coverage when faced with the loss of a loved one.

                                 S. 552

    The technical corrections made by the proposed legislation will 
correct a mistake made by legislation enacted during the last Congress. 
The provisions in question from P.L. 108-454 were intended to extend 
eligibility for the Specially Adapted Housing Grant to servicemembers 
who experience the loss, or loss of use, of both upper extremities such 
as to preclude use of the arms at or above the elbows. PVA supported 
this legislation as it was passed during the last Congress.
    However, P.L. 108-454 apparently excluded servicemembers who 
experience these severe disabilities, and who remain on active duty, 
from having access to the Specially Adapted Housing Grant. Ensuring 
access to this grant for severely disabled servicemembers who are still 
on active duty was a key initiative of PVA during the 108th Congress. 
Many PVA members have dealt with this problem in the past. A 
significant number of PVA members utilize the adaptive housing grants 
for their homes. Unfortunately, in situations where our members come 
directly from active duty and are waiting for separation, they are 
forced to stay in a hospital or live with someone else because they do 
not have immediate access to the grants that would allow them to become 
independent much faster. PVA supports the corrections made by this 
proposal.

                                 S. 917

    PVA supports S. 917 which would make permanent the pilot program 
established by P.L. 102-547 that authorizes the Secretary of Veterans 
Affairs (VA) to provide direct housing loans to Native America 
veterans. It has become more difficult for veterans to purchase a home 
because of soaring housing prices. Native American veterans are not 
shielded from the same difficulties. VA home loans have proven vital in 
allowing veterans to realize the dream of owning a home. The rates 
offered by the VA afford veterans opportunities that they might not 
otherwise have with a private lender. PVA supports making this pilot 
program permanent.

          THE ``DISABLED VETERANS INSURANCE IMPROVEMENT ACT''

    Supplemental insurance for those veterans who have incurred a total 
service-connected disability is an important benefit available to that 
population of veterans. It is often extremely difficult for totally 
disabled veterans to get any type of insurance, particularly life 
insurance. This proposed legislation would increase the supplemental 
amount available to these veterans from $20,000 to $40,000. PVA 
supports this legislation. It is very important that totally disabled 
veterans get all of the assistance that they have earned and deserve.

             S. 151, THE ``VETERANS BENEFITS OUTREACH ACT''

    PVA fully supports the ``Veterans Benefits Outreach Act.'' This 
bill would require the VA to develop and implement an annual plan for 
outreach to veterans around the country. PVA and other veterans service 
organizations have previously expressed concerns about the VA not 
making an effort to reach out to veterans who have earned and deserve 
health care and benefits. Only a couple of years ago, a senior VA 
official provided a memorandum to medical centers around the country 
instructing them not to actively reach out to veterans and advertise 
the health care services available to veterans. This was done in light 
of ever-tightening budgets. PVA finds such actions deplorable and 
shameful.
    We believe it is the responsibility of the VA to inform veterans 
and their families of the benefits and services available to them. VA 
must ensure that the needs of the men and women who have served and 
sacrificed are provided for. These veterans should not be allowed to be 
shielded from the services available to them just because it is not 
financially feasible for the VA to conduct outreach. Any effort the VA 
makes to avoid outreach is a blatant disregard of its Federal 
obligation.

                                 S. 423

    PVA has no position on this legislation. However, we encourage 
Congress to ensure that any legislation that is passed reflects 
standards for consideration as an insurable dependent accepted by the 
insurance industry nationally.

                                 S. 551

    PVA fully supports this legislation which authorizes the VA to 
establish a national cemetery in Colorado Springs, Colorado. According 
to VA information, there are currently only two national cemeteries 
located in Colorado, neither of which is near the Colorado Springs 
area. With the rate that veterans are dying today, particularly World 
War II veterans, it is imperative that the VA be able to provide a 
suitable burial location for these men and women. Colorado Springs 
would provide an excellent cemetery location that is centrally located 
in the state.

                                 S. 909

    P.L. 107-330 authorized the VA to provide private government 
markers to veterans who have marked graves in private cemeteries. This 
legislation was meant to provide for recognition of those men and women 
who have served this Nation with honor. However, P.L. 107-330 only 
provided this benefit retroactively to veterans who died after 
September 11, 2001. It excludes veterans who died between November 1, 
1990 and September 11, 2001. Prior to enactment of P.L. 107-330, the VA 
estimated that it denied more than 20,000 headstones or markers to 
these veterans. This legislation would correct this serious inequity. 
All veterans should be afforded the same recognition of their service 
following their death. PVA fully supports S. 909.

                                S. 1138

    The actions of U.S. Army Rangers during World War II are well 
documented and reflect great credit upon their units. Their exploits 
certainly deserve recognition. However, PVA has no position on this 
legislation. We must emphasize that any memorial built at Arlington 
National Cemetery must meet the guidelines established for creation of 
any memorial on its grounds and that it be fully accessible to people 
with disabilities.

    S. 1259, THE ``VETERANS EMPLOYMENT AND TRANSITION SERVICES ACT''

    PVA supports the provisions of S. 1259, the ``Veterans Employment 
and Transition Services Act.'' This legislation recognizes the valuable 
roles that representatives of veterans' and military service 
organizations and related State agencies can play in providing a 
seamless transition for servicemembers exiting the military. These 
individuals can relate to the young serviceman or woman better than 
most people. Furthermore, they and can offer substantive advice on 
challenges that the servicemember will face and how to overcome those 
challenges. Pre-separation counseling is one of the most important 
activities for ensuring a greater likelihood of success in the civilian 
world.
    PVA also appreciates the emphasis placed on targeting not only 
active duty military installations, but also National Guard armories 
and family support centers as well as military medical facilities. 
Recognizing the fact that many National Guardsmen and Reservists left 
the civilian world to begin with, we cannot assume that it will 
automatically be easier for them to transition back to their previous 
life. We must do what we can to protect them from the dangers of 
homelessness, mental health issues, and substance abuse disorders.

                  THE ``PRISONER OF WAR BENEFITS ACT''

    This legislation would repeal the requirement that a POW be held 
captive for at least 30 days in order to receive a presumption of 
service-connection for the purposes of receiving benefits. This issue 
was first considered last year after American service personnel who 
were held captive by Iraq during the early stages of the war were 
released or rescued after less than 30 days of internment. These men 
and women had sustained severe injuries as a result of combat actions 
and their subsequent internment. It seems only fair that any POW, 
regardless of time in captivity, be recognized as being eligible for 
service-connected benefits. PVA supports this provision.
    We likewise support the addition of the following diseases to the 
list of diseases presumed to be service-connected: heart disease, 
stroke, Type II diabetes, and osteoporosis. We have no objections to 
the requirements placed on the Secretary of VA for adding or 
subtracting diseases to the presumptive service-connection list. We 
would only caution that veterans and former POWs should be given the 
benefit of the doubt before any consideration is given to removing a 
disease from the list.
    PVA appreciates the opportunity to testify today on the proposed 
legislation. We look forward to working with the Committee to ensure 
that veterans get the benefits that they have earned and deserve.
    I would be happy to answer any questions that you might have. Thank 
you.

    Chairman Craig. Carl, thank you very much.
    Richard, please proceed.

  STATEMENT OF RICHARD JONES, NATIONAL LEGISLATIVE DIRECTOR, 
                             AMVETS

    Mr. Jones. .Chairman Craig, Ranking Member Akaka, AMVETS 
appreciates the opportunity to present testimony today. Thank 
you very much for the time you provide us.
    Senate Bill 1234, introduced by Chairman Craig, would 
increase the rates of disability compensation and dependency 
and indemnity compensation. This legislation follows the 
congressional practice of setting the COLA by reference to the 
Social Security increase. Eligible veterans and family members 
would expect to see this increase in their January checks. Last 
year's increase was 2.7 percent; current estimates for 2006 
project 2.3 percent. The basic purpose of the compensation 
program is to provide a measure of relief from the impaired 
earning capacity of veterans disabled as a result of their 
military service. AMVETS fully supports this bill.
    Senate Bill 1235, the Veterans Benefits Improvement Act of 
2005, would make the maximum amount of Servicemembers' Group 
Life Insurance and Veterans' Group Life Insurance coverage to 
the total $400,000 from its present $250,000. While the 
Emergency Supplemental Appropriation Act enacted SGLI and VGLI 
improvements earlier this year, the provisions terminate, as we 
discussed earlier, and the bill would make this coverage 
permanent. AMVETS supports this section of the legislation. The 
bill also would require the Secretary of Defense to notify in 
writing spouses of service personnel who name beneficiaries 
other than spouse, who reduce their SGLI coverage.
    AMVETS is inclined to oppose this provision since the 
servicemember's decision regarding initial coverage, the amount 
of coverage, and those sort of related questions should be the 
individual's alone unless the person freely chooses to discuss 
decisions with family members and others. AMVETS fully supports 
the provisions of the bill to extend the--SGLI coverage and 
VGLI coverage for 1 year following military discharge. The 
extension will allow better rates of conversion and we think 
this is a great provision. We also support the Home Loan 
changes, which is the final provision of that act.
    The Veterans Employment and Transition Services Act of 
2005, Senator Salazar's legislation, would likely strengthen 
seamless transition and would increase participation in the 
transition assistance program. It would enhance VSO access to 
military facilities as well as to DOD data on separating 
servicemembers. I think this would also benefit veterans. It is 
AMVETS' understanding that the bill would separate employment 
and benefits counseling to those military personnel ready for 
separation, and we support this provision as well.
    S. 1271 is POW legislation to address medical problems--
diabetes, osteoporosis. These often occur in POWs many years 
after their release. AMVETS supports this legislation.
    Thank you, Mr. Chairman, for the time you provide us. Our 
written statement is provided for the record.
    [The prepared statement of Mr. Jones follows:]

  Prepared Statement of Richard Jones, National Legislative Director, 
                                 AMVETS

    Chairman Craig, Ranking Member Akaka, and Members of the Committee:
    Thank you for the opportunity to present testimony to the Veterans' 
Affairs Committee on legislation subject to this hearing devoted to 
improvements in veterans benefits programs and related matters. My name 
is Richard Jones, AMVETS National Legislative Director.
    AMVETS is pleased to present our views the legislation before the 
Committee: S. 1234, a bill to authorize a cost-of-living adjustment; S. 
1235, the ``Veterans' Benefits Improvements Act of 2005''; S. 552 a 
bill to make technical corrections to the Veterans' Benefits 
Improvements Act of 2004; S. 917, a bill to make permanent an existing 
Native Americans home loan pilot program; S.__, the ``Service Disabled 
Veterans Insurance Improvement Act''; S. 151, the ``Veterans Benefits 
Outreach Act of 2005''; S. 423, a bill to make stillborn children 
insurable dependents for purposes of Servicemembers Group Life 
Insurance; S. 551, a bill to expand eligibility for government-provided 
grave markers for veterans buried in private cemeteries.
    Mr. Chairman, AMVETS has been a leader since 1944 in helping to 
preserve the freedoms secured by America's Armed Forces. Today, our 
organization continues its proud tradition, providing not only support 
for veterans and the active military in procuring their earned 
entitlements but also an array of community services that enhance the 
quality of life for this nation's citizens.
    Throughout our 61-year history, our focus and indeed our passion 
have been to represent the interests of veterans as their advocates. In 
this regard, this Committee and our organization share a common 
purpose--we support veterans in their efforts to receive the benefits 
that a grateful Nation intended them to have in recognition of their 
dedicated service to our country.
    As a nation, we owe veterans an enormous debt of gratitude for 
their service, their patriotism, and their sacrifices. The benefits to 
which they are legally entitled are not the product of some social 
welfare program, as some might argue. Rather they are yet another cost 
of freedom that unfortunately is too often forgotten.
    As a national veterans service organization, chartered by Congress, 
AMVETS is committed to assisting veterans in their times of need. For 
example, during the past 18 years, we, together with DAV, PVA, and VFW, 
have co-authored a document titled The Independent Budget in which we 
identify the funding requirements necessary to support the Department 
of Veterans Affairs.
    We believe that America's promises made to veterans for their 
military service need to be recognized and honored as our forebears 
intended. We believe that veteran's benefits should be provided in a 
timely and compassionate manner. We believe that to do less dishonors 
those whose service in defense of this Nation provides a central 
underpinning for the prosperity and freedoms we all enjoy.
    We appreciate the opportunity you provide to testify on pending 
legislation to enhance, update, and strengthen veterans legislation.

    S. 1234, A BILL TO PROVIDE A COST-OF-LIVING INCREASE, EFFECTIVE 
    DECEMBER 1, 2005, IN COMPENSATION, AND DEPENDENCY AND INDEMNITY 
                     COMPENSATION, AND OTHER RATES

    S. 1234, introduced by Chairman Craig, would increase in rates of 
disability compensation and dependency and indemnity compensation, 
effective December 1, 2005, the rates of compensation for service-
connected disabilities and the rates of dependency and indemnity 
compensation (DIC) for surviving spouses and children of veterans who 
die of service-connected causes, as well as the additional amounts for 
dependents and survivors, and clothing allowances for certain veterans.
    This legislation follows the congressional practice of setting the 
COLA by reference to the Social Security increase, which will be 
determined as of September 30, 2005. Eligible veterans and family 
members would expect to see this increase in their January checks, if 
approved. Last year's increase was 2.7 percent.
    More than 2.5 million veterans receive service-connected disability 
compensation as of April 2005. The basic purpose of the disability 
compensation program is to provide a measure of relief from the 
impaired earning capacity of veterans disabled as the result of their 
military service.
    The amount of compensation payable varies according to the degree 
of disability. This amount in turn is required by law to represent, to 
the extent practicable, the average impairment in earning capacity in 
civilian occupations resulting from such disability or combination of 
disabilities.
    To be eligible to receive disability compensation, a veteran must 
have a disability incurred or aggravated during military service, which 
is not the result of willful misconduct, and have been discharged under 
other than dishonorable conditions. The responsibility for determining 
a veteran's entitlement to service-connection for a disability rests 
solely with the Department of Veterans Affairs.
    More than 296,000 surviving spouses and nearly 30,000 children 
receive dependency and indemnity compensation (DIC). Widows and 
children of veterans who died of disabilities determined by VA to be 
service-connected (including veterans who died while on active duty) 
are entitled to receive monthly DIC benefits.
    The purpose of DIC benefits, authorized under chapter 13 of title 
38, United States Code, is to provide partial compensation to the 
appropriate survivors for the loss in financial support due to the 
service-connected death. Income and need are not factors in determining 
a surviving spouse's or child's entitlement because the Nation in part 
assumes the legal and moral obligation of the veteran to support the 
spouse and children.
    The Senate and House Committees annually review the service-
connected disability compensation and DIC programs to ensure such 
benefits provide reasonable and adequate compensation for disabled 
veterans and their families. Based on this review, Congress acts 
annually to provide a cost-of-living adjustment (COLA) in compensation 
and DIC benefits. Congress has provided annual increases in these rates 
for every fiscal year since 1976.
    AMVETS supports our Nation's commitment to care for the men and 
women who have served in our military service. This legislation will 
increase current rates of disability compensation and help meet rising 
costs. We support the COLA increase contained in this legislation.

      S. 1235, THE ``VETERANS' BENEFITS IMPROVEMENTS ACT OF 2005''

    Under Senator Craig's legislation, the maximum amount of 
Servicemembers Group Life Insurance and Veterans Group Life Insurance 
coverage would increase to $400,000 from $250,000. In addition the bill 
would require the Secretary of Defense to notify spouses of insured 
servicemembers when those covered select a beneficiary other than their 
spouse or when they elect to reduce their coverage amount. Also it 
would provide VA with the capacity to adjust hybrid adjustable rate 
mortgage loans above the annual limits currently set in law.
    The Emergency Supplemental Appropriations Act for Defense, the 
Global War on Terrorism and Tsunami Relief of 2005 enacted the SGLI and 
VGLI improvements earlier this year. However, the provisions terminate 
September 30 at the close of the current fiscal year. The Chairman's 
bill would make this coverage permanent at the higher rate of $400,000. 
AMVETS supports this section of the legislation.
    The bill also would require the Secretary of Defense to notify, in 
writing, the spouses of service personnel who name beneficiaries other 
than the spouse or who reduce their SGLI coverage. AMVETS is inclined 
to oppose this provision since, as an adult, the servicemember's 
decision regarding initial coverage, the amount of coverage and 
insurance beneficiary or beneficiaries should be the individual's 
alone, unless the person freely chooses to discuss the decision with 
family members or others.
    AMVETS fully supports provisions in the bill to extend the free of 
SGLI coverage and VGLI conversion for 1 year following military 
discharge. The 1-year extension coverage enables individuals more time 
to convert military life insurance to VGLI. Too many disabled veterans 
simply do not apply for currently available extensions due to 
rehabilitation efforts or any number of other related aspects of their 
recover or readjustments. This extension will allow better rates of 
conversion to veterans coverage and improve their security since 
totally disabled veterans have little chance of finding coverage in the 
private sector due to the affect on life expectancy of their disabling 
injuries.
    The final section of the Chairman's legislation would grant 
authority to VA to make enhanced adjustments in VA hybrid ARM loans. 
AMVETS is informed that the VA hybrid ARM loan program is an attractive 
alternative to a number of veterans. It improves the overall home loan 
program and assists veterans and their families in affording a home. We 
approve of the flexibility granted to set annual interest rate 
adjustments at actuarially sound levels to ensure continued 
availability of this contemporary home loan option.

 S. 552, A BILL TO MAKE TECHNICAL CORRECTIONS TO THE VETERANS BENEFITS 
                        IMPROVEMENT ACT OF 2004

    Under the Ranking Member's legislation, severely disabled members 
of the Armed Forces, still on active duty, would have their specially 
adapted housing benefits restored. It is the understanding of AMVETS 
that these individuals' adapted housing benefits were accidentally 
repealed when efforts were made in the last Congress to improve related 
aspects of the adapted housing benefit. We strongly support Senator 
Akaka's legislation to correct this situation.

   S. 917, A BILL TO MAKE PERMANENT AN EXISTING ``PILOT'' PROGRAM OF 
             DIRECT HOME LOANS TO NATIVE AMERICAN VETERANS

    Under Senator Akaka's legislation, VA would be able to continue 
offering loan guarantees to individuals who live on trust lands that 
protect lenders against loss up to the amount of the guarantee if the 
borrower fails to repay the loan. The legislation would upgrade a 
successful pilot program begun in 1992 to permanent status. It is 
AMVETS understanding that the pilot program of providing home loan 
assistance to individuals living on tribal lands has enhanced the 
benefits earned by Native Americans who have served in America's 
military. We support the bill.

         S. 151, THE ``VETERANS BENEFITS OUTREACH ACT OF 2005''

    AMVETS believes it is important that veterans understand the 
benefits they have earned through military service. Senator Coleman's 
legislation would require the Department of Veterans Affairs to develop 
an annual plan to identify veterans who are eligible but not receiving 
their benefits and establish an outreach plan to enroll them. AMVETS 
supports the bill.

  S. 423, A BILL TO MAKE STILLBORN CHILDREN INSURABLE DEPENDENTS FOR 
            PURPOSES OF SERVICEMEMBERS GROUP LIFE INSURANCE

    Incredible advances in health care have reduced dramatically 
childbirth deaths and injuries. Yet, pregnancy issues and medical 
situations can result in a baby that is stillborn. It is our 
understanding that a stillbirth is a baby born after 20 weeks of 
pregnancy with no signs of life and stillbirths occur in about four to 
nine cases for every 1,000 births. Senator Santorum's bill would 
recognize stillborns as an insurable dependent under the Servicemembers 
Group Life Insurance. AMVETS supports the bill.

    S. 551, A BILL TO DIRECT VA TO ESTABLISH A NATIONAL CEMETERY IN 
                       COLORADO SPRINGS, COLORADO

    In 1999, Congress directed VA to study improvements to Veterans 
Cemeteries through passage and enactment of the Veterans Health Care 
and Benefits Act of 1999. In accordance with the provisions of the Act, 
VA contracted Logistics Management Institute to examine providing a 
burial option for 90 percent of veterans residing within a 75-mile 
service area of an open national or State cemetery. The study concluded 
that 31 additional veteran's cemeteries will be required over the next 
20 years in order to provide 90 percent of veterans with a burial 
option in each 5-year period beginning in 2005 and extending to 2020. A 
national cemetery located in Colorado Springs was not identified in the 
study among the 31 that will be required.

  S. 909, A BILL TO EXPAND ELIGIBILITY FOR GOVERNMENT-PROVIDED GRAVE 
           MARKERS FOR VETERANS BURIED IN PRIVATE CEMETERIES

    Under Senator Dodd's legislation, veterans and their families would 
be entitled to receive VA's official grave marker if the veteran had 
passed away during the period between November 1, 1990, and September 
11, 2001, when law forbid receipt of the honor. According to Senator 
Dodd's introductory statement, The Congressional Budget Office 
estimates that the cost of this favorable decision would be minimal, no 
more than $3 million per year for the first 5 years. AMVETS trusts that 
the Senate Committee can locate the funds necessary to incorporate 
these veterans with an official recognition. AMVETS supports the bill.

S.----, THE ``VETERANS EMPLOYMENT AND TRANSITION SERVICES ACT OF 2005''

    Senator Salazar's legislation would likely strengthen participation 
in the Transition Assistance Program of separating service members 
during their period of transition into civilian life. Under this 
legislation, service members would have greater access to veterans 
service organizations through enhanced VSO access to military 
facilities as well as to DoD data on separating service members. It is 
AMVETS understanding that the bill separate employment and benefits 
counseling to those military personnel ready for separation from re-
enlistment counseling. AMVETS supports the goal of this bill to 
strengthen participation in TAP programs and enhance the 
servicemember's transition to civilian life and work.
    This concludes AMVETS testimony. Again, thank you for the 
opportunity to testify on these important bills, and thank you as well 
for your continued support of America's veterans.

    Chairman Craig. Well, gentlemen, thank you very, very much 
for being with us.
    Steve and Richard, let me turn to you. Your written 
testimony outlines your opposition to a provision in 1235, 
which I have introduced, that would require the Secretary of 
Defense to notify spouses of servicemembers when those 
servicemembers elect to reduce insurance coverage or name 
beneficiaries other than their spouses. As you know, the 
Emergency Supplemental Appropriation Act provisions on SGLI 
require a spouse's written consent on some insurance decisions 
as a far more stringent requirement than I propose.
    What I have attempted to do is strike a balance between the 
rights that many believe spouses have to be made aware of 
important financial decisions and the longstanding right that 
servicemembers have to make unfettered insurance decisions. So 
my question would be to you all, how would each of you propose 
to strike the balance, if not in the way that I have proposed?
    Mr. Jones. Well, I guess ours would be at the far end of 
the spectrum, and that is that it is a decision that should be 
made by the servicemember as to whether or not he wishes or 
chooses to participate in the program. I think the current 
program offers that opportunity to enter the program and to get 
out of the program on a regular basis. He can actually do it 
before deployment, if he so chooses. I think that is the right 
way to go. Leave it to the servicemember.
    Mr. Smithson. We feel also that it is a contract between 
the servicemember and the Government, and that is a matter to 
be dealt with by the servicemember.
    Chairman Craig. Well, gentlemen, thank you for those 
thoughts. I am working in the confines of existing law trying 
to see if we can't level that out a bit. But I do appreciate 
those thoughts.
    S. 1138, legislation introduced by Senator Allen, would 
authorize the placement of national cemetery--a monument at 
Arlington National Cemetery honoring World War II Army Rangers. 
As you know, there is restricted burial eligibility at 
Arlington because of space limitations.
    Any of you wish to comment your thoughts about the merit of 
this and how we might proceed with this kind of legislation?
    Mr. Jones. Mr. Chairman, AMVETS shares the profound pride 
and admiration and gratitude associated with the spirit of 
Senate Bill 1138, a bill to authorize the placement of this 
memorial in Arlington. However, we are concerned that the 
placement of this memorial in Arlington Cemetery might be 
placed on a plot of land suitable for gravesites. As you well 
know, Arlington, as a national shrine, holds a very unique 
place in the eyes of the American people, and there must, of 
necessity, be some restrictions on monuments at Arlington to 
ensure continual burials at this magnificent site. With 
limitations on property, we would propose that such a monument 
be placed, that it should be placed on land that is unsuitable 
for gravesites. Those in Congress might explore appropriate 
action that would expand--also, we would propose that the 
Congress focus on expanding the land available for Arlington 
National Cemetery so as to extend the stated purpose of 
Arlington National Cemetery.
    Chairman Craig. Does anyone else wish to make comment on 
that?
    Carl, on your testimony on S. 423 regarding insurance for 
stillborn children, PVA recommends that any insurance benefit 
for stillborn children conform to nationally accepted industry 
standards. According to VA's testimony, industry practice is 
not to pay any insurance benefit until 14 days after a live 
birth. Can I take it, then, that PVA is in opposition to S. 
423? In addition, does PVA believe VA's current practice, which 
also does not conform to industry standards, needs to be 
modified?
    Mr. Blake. First, Mr. Chairman, I would like to say that in 
researching this legislation that was introduced, I spoke with 
the American Council on Life Insurers. And the way it was 
explained to me is there is coverage from the very date of 
birth for a child that is born. However, the private insurance 
industry only recognizes children that are born live from that 
date. There are riders that are put into place, and I 
understand that most insurance kicks in at 14 days, but there 
are also riders that cover that 14 days prior.
    In light of the testimony of the VA and the other service 
organizations, I would like to perhaps take this back and 
discuss it with our leadership. However, we still have some 
concerns about some of the wording in the legislation, and we 
would be happy to work with you to address some of our concerns 
as well.
    Chairman Craig. Fair enough. Thank you. Thank you very 
much.
    Danny. Senator Akaka.
    Senator Akaka. Thank you very much, Mr. Chairman.
    I want to continue a line of questioning on separation of 
personnel from the military into the veterans groups. So this 
question is directed to all of you. As you know, I asked the VA 
to make comments about how VA includes VSO's in the transition. 
I would like to ask you, what services do your organizations 
provide to servicemembers who are transitioning from military 
to civilian life? If Senator Salazar's legislation is enacted, 
how could you provide greater assistance to servicemembers?
    Mr. Surratt. Senator Akaka, if I may, I will answer that 
first. The DAV has a special category of employees called 
transition service officers. And we have those stationed--I 
don't have the statistics here with me--at most of the major 
discharge centers. They assist those veterans in all the 
issues--you know, compensation, the benefits, and those 
things--to counsel them on what might be available to them. Of 
course, we assist veterans when they return home to one of our 
regional offices, our national service officers do. Again, I 
don't have the number of those employees, the statistics, but I 
do know that we have a fairly comprehensive program.
    Mr. Blake. Senator Akaka, PVA has most of its service 
office staff stationed either at regional offices or at medical 
facilities, primarily VA facilities with SCI centers. However, 
one of the things we have worked with or have tried urging both 
the Department of Labor, the VA, and the Department of Defense 
in doing is including the veterans service organizations in the 
Transition Assistance programs and in the Disabled Transition 
Assistance programs, because we can bring that expertise to the 
forefront from the beginning, because I think that that is one 
of the key points where the transition process begins.
    Mr. Smithson. The American Legion also conducts outreach to 
active duty servicemembers that are transitioning out of the 
military. We are currently looking at the way we are doing 
things and we want to improve on that. And we would be open to 
extended relationship or cooperation with the VA in that 
regard.
    Mr. Kinderman. The VFW also has similar programs and we 
actually do visit military bases and have worked out agreements 
with base commanders in places. I think passage of this 
legislation may make it much easier for us to gain that sort of 
access.
    Mr. Jones. AMVETS also has these operations, both formal 
and informal. But our organization is more federalized, in that 
each department of AMVETS may have a different program. Take, 
for example, the program in Ohio. Ohio has an actual employment 
center that helps the transition folks so that they can get the 
criteria they need and the skills they need through education. 
It is a very large operation in Ohio, and very successful. We 
just began it last year, and we are looking forward to 
replicate it in several other States as other departments look 
at the progress and success of this in Ohio.
    Senator Akaka. My next question is to ask you about special 
insurance needs. What special insurance needs do severely 
disabled veterans have? What do you believe is a reasonable 
amount of life insurance to provide to these severely disabled 
veterans? Can you comment on both the base amount and the 
supplemental amount that veterans can purchase?
    Mr. Surratt. Senator Akaka, the VA conducted a program 
evaluation of its SDVI program, I believe, about 3 or 4 years 
ago. And if I recall, at that time, and perhaps we have this in 
a resolution--I have to admit I don't remember it--I think that 
figure was $50,000 at that time, face value on the base policy. 
You are talking about the SDVI program, I take it. Yes. Fifty 
thousand dollars was the recommended amount. Now, that has 
been--there has been some passage of time since then.
    Senator Akaka. Well, my final question is my concern about 
the National Guard and the Reserves. Do any of your 
organizations conduct outreach especially to National Guards 
and Reserves? And have you encountered any difficulties in your 
outreach efforts to our Guard and Reserve members?
    Mr. Smithson. As was stated with the AMVETS structure of 
things, the American Legion is also decentralized and our 
departments operate different programs. However, as far as the 
Guard and Reserves, several of our departments in various 
States have strong programs with Guard and Reserve units. We 
conduct regular outreach. We have programs that are called, 
``Adopt a Guard or Reserve Unit'', where a post, a local Legion 
post will adopt that unit and take care of needs that arise for 
the family members of the deployed servicemembers. We had 
relatively good success gaining access to the Guard and Reserve 
units once we explained to the commands what our purpose is and 
how we can better support them while they are deployed.
    Mr. Kinderman. Senator, we have a vast number of posts and 
outreach efforts, and I would be glad to provide some 
information on that for the record, if I may.
    Senator Akaka. Mr. Surratt.
    Mr. Surratt. Senator, I am not sure whether we have our 
transition service officers--I am probably sure we don't have 
them stationed at the separation centers for Guard and Reserve, 
but we may very well travel on an itinerant basis. I would be 
happy to get that information and let you know. Certainly it is 
a good idea to have those areas covered.
    Senator Akaka. Mr. Blake.
    Mr. Blake. Senator Akaka, given the smaller sphere which 
our service program operates within, I know that they have not 
reached out as much. At the national level we have not done so. 
However, a number of our chapters have created working 
relationships both with some of the active installations that 
they are near and some of the Guard armories that are in their 
vicinities as well, to assist them, partly because--with regard 
to the Guard and Reserve--these are civilians that many of our 
members within our chapters deal with on a regular basis 
outside of that Guardsman's or Reservist's service in the 
military.
    Senator Akaka. Mr. Jones.
    Mr. Jones. Senator Akaka, earlier this year AMVETS entered 
into a memorandum of understanding with the National Guard. 
General Blum, our commander, and Commander Boettcher sat down 
and signed that memorandum of understanding in April of this 
year. It is a hand-in-hand relationship, that we work directly 
with the Guard and they with us, notifying us of their needs 
and we, in turn, working with our departments and posts to help 
the Guard make the transition and to help families as well, 
Guard-deployed.
    Senator Akaka. Thank you very much for all your responses.
    Chairman Craig. We have been joined by Senator Thune. Any 
opening comments, general comments, and/or questions you would 
like to make, John?

 OPENING STATEMENT OF HON. JOHN THUNE, U.S. SENATOR FROM SOUTH 
                             DAKOTA

    Senator Thune. Well, thank you, Mr. Chairman. I want to 
thank our panel for their service and their willingness to be 
here today and to respond to questions and react to some of the 
legislative proposals that are out there. Also, I just want to 
say that I look forward to working with you and the other 
Members of this Committee, as well as with Senator Akaka, to 
craft some--a package, I think, of legislation that would 
improve the quality of care that we provide for America's 
veterans.
    I also would like to note that I have a couple of pieces of 
legislation, some parts of the bill that I introduced earlier, 
that has been referred to another committee, pieces of which I 
would like to have this Committee consider as well, and will be 
in touch with the Committee on that.
    Also to note, Mr. Chairman, I understand that we have a bit 
of a funding issue that we need to deal with in the short term 
now with the VA, and to let you know that I look forward to 
working with you and Senator Akaka and, again, with the other 
Member sort of this Committee, to make sure that we address 
that need and that the facilities that are out there around the 
country that have funding needs right now, that those are 
adequately addressed. So we look forward to addressing that. It 
is a serious need for our veterans across this country.
    Thank you all.
    Chairman Craig. John, thank you very much.
    Before I release the panel, and for the audience that is 
present, Danny and I misconnected this morning. I did talk with 
Senator Murray and others, so let me bring you up to speed on 
some breaking news. Senator Murray, I, Senator Akaka, and all 
of the Committee that wishes to attend will be holding a press 
conference at 12:15.
    I learned yesterday that the Department of Veterans Affairs 
is approximately a billion dollars short in funding this year 
due to a larger increase in demand for health care than was 
assumed as a result of the budget processes that they are going 
through and have gone through. I understand that they are 18 
months in the process of projecting forward as they submit 
their budget applications. They had anticipated in their model 
about a 2.3 percent increase; it appears that increase is well 
over 5 percent, 5.2 percent. The VA has diverted at least $600 
million from capital and $400 million from carryover. I talked 
with Secretary Nicholson this morning and told him in no 
uncertain terms how unhappy I was of this situation, that I 
would be informing my colleagues of it, and that we would 
expect to hold a hearing in this Committee next week on this 
issue.
    The Secretary is, at this time, obviously moving very 
quickly to crunch numbers to better understand where we are and 
what will be needed and expected. I told him I wanted a very 
straightforward accounting and a realistic proposal before us 
as it relates to meeting current and future needs of our 
veterans, and that is what I would expect to hear early next 
week. As I said, we will be making statements on this in a 
press conference at 12:15 in the Senate Gallery.
    I wanted you to know that, though, so there were no 
surprises.
    Again, thank you all very much for your testimony this 
morning on this variety of pieces of legislation. We will stay 
in contact as information comes forward from you on the 
additional pieces that you did not have soon enough, as true of 
the VA, and we may be responding back to you in writing for 
responses to that.
    Thank you all very much. The Committee will stand 
adjourned.
    [Whereupon, at 11:50 a.m., the Committee adjourned.]


                            A P P E N D I X

                              ----------                              

      Prepared Statement of Hon. Joel Hefley, U.S. Representative 
                             from Colorado

    Mr. Chairman, Ranking Member Akaka and Members of the Senate 
Committee on Veterans' Affairs, thank you for this opportunity to 
provide the Committee with my prepared statement for the record for 
today's hearing on pending legislation before the Committee.
    Mr. Chairman, more than 2.5 million Americans, including veterans 
of every war and conflict--from the Revolutionary War to the Gulf War--
are honored by burial in VA's National Cemeteries. More than 14,200 
acres of land from Hawaii to Maine, and from Alaska to Puerto Rico are 
devoted to the memorialization of those who served this Nation. More 
than 300 recipients of the Medal of Honor are buried in VA's National 
Cemeteries.
    Today, more than 25 million veterans and Reservists and National 
Guard members with 20 years qualifying service (who are entitled to 
retired pay or would be entitled, if at least 60 years of age), have 
earned the honor of burial in a National Cemetery. Veterans with 
discharges other than dishonorable, their spouses and dependent 
children may be eligible for burial in a VA National Cemetery. Those 
who die on active duty may also be buried in a National Cemetery.
    Currently, there are 136 national cemeteries. The Veterans 
Administration, through its National Cemetery Administration (NCA), 
administers 120 of them. Two National Cemeteries--Arlington and 
Soldiers Home--are still administered by the Army. Fourteen National 
Cemeteries are maintained by the Department of the Interior.
    Demographics are the primary driver in determining the scope and 
level of investment at NCA facilities around the country. Demographic 
data of the aging veteran population projected that 662,000 veterans 
deaths would occur in 2004. The number of veterans deaths will peak in 
2008 at 676,000, and thereafter will decline slowly. In 2010, it is 
estimated that there will be 672,000 veterans deaths. As 11 new 
national cemeteries are established, VA projects increases in the 
number of annual interments from 93,000 in 2004 to approximately 
114,700 in 2010, an increase of 23 percent. With the opening of new 
national cemeteries, annual interments are expected to increase at a 
higher rate than the number of veteran deaths. During this time, the 
total number of graves maintained is also expected to increase from 
nearly 2.6 million in 2004 to over 3.1 million in 2010.
    As the Committee is aware, the Veterans Millennium Health Care and 
Benefits Act, Public Law 106-117, directed VA to contract for an 
independent demographic study to identify those areas of the country 
where veterans will not have reasonable access to a burial option in a 
national or State veterans cemetery, and the number of additional 
cemeteries required through 2020. The National Cemetery Expansion Act 
of 2003, Public Law 108-109, directed VA to establish six new national 
cemeteries in the areas of Bakersfield, California; Birmingham, 
Alabama; Columbia/Greenville, South Carolina; Jacksonville, Florida; 
Sarasota, Florida; and Southeastern Pennsylvania. These six areas were 
identified in the demographic study. Unfortunately, the Colorado 
Springs area did not make this list.
    Let me just say that I am aware of an NCA rule requiring no 
National Cemetery within 75 miles of one another. Currently, Colorado 
Springs is approximately 72 miles from the Fort Logan National Cemetery 
in Denver, Colorado and almost 140 miles to the Fort Lyon National 
Cemetery in Las Animas, Colorado.
    I mention that demographics is the primary driver in determining 
where National Cemeteries are to be located because, as the Committee 
may know, Colorado Springs, Colorado is the home to Fort Carson, 
Schriever and Peterson Air Force Bases, Cheyenne Mountain, which 
includes elements of the North American Aerospace Defense Command 
(NORAD) and the U.S. Northern Command (NorthCom), and the Air Force 
Academy. Combined, these installations are home to approximately 30,000 
uniformed personnel, not including their dependants. And this 
population is expected to grow significantly after the 2005 Base 
Realignment and Closure round is completed.
    Furthermore, the Department of Defense's Office of Actuary 
continues to rank the 5th Congressional District of Colorado, which 
includes Colorado Springs, third out of the 435 congressional districts 
as having the most military retirees, most recently: 1999--22,303; 
2002--21,702; and 2004--21,904, not including their spouses. 
Additionally, the 2000 Census indicated as many as 103,391 veterans and 
110,000 spouses in the Colorado Springs area who may be eligible for 
burial in a National Cemetery.
    The current retiree/veteran demographics and the expected growth in 
these numbers clearly indicate the need for a National Cemetery in the 
Colorado Springs area. For this reason, Senator Wayne Allard and I 
introduced S. 551 and H.R. 1159, respectively. This legislation directs 
the Secretary of Veterans Affairs to establish a National Cemetery for 
veterans in the Colorado Springs, Colorado, metropolitan area.
    Finally, each National Cemetery exists as a national shrine, a 
place of honor and memory that declares to the visitor or family member 
who views it, that within its majestic setting, each and every veteran 
may find a sense of serenity, historic sacrifice, and nobility of 
purpose. National Cemeteries also carry expectations of appearance that 
set them apart from private cemeteries.
    Mr. Chairman, the National Cemetery Administration states that 
their mission is to honor veterans with a final resting place and 
lasting memorials that commemorate their service to our Nation. And I 
believe Congress has a duty to provide those benefits that fully 
recognize the service and sacrifices made by those men and women who 
wore the uniforms of this Nation. Locating a National Cemetery in the 
Colorado Springs area will achieve these goals.
    Mr. Chairman, I look forward to the opportunity to provide any 
additional information to clarify any concerns you, the Committee or 
your staff may have. Again, thank you and the Committee for the 
opportunity to provide you with this statement for the record.

                               __________
         Prepared Statement of the Mortgage Bankers Association

    The Mortgage Bankers Association (MBA) appreciates the opportunity 
to express our views to the U.S. Senate's Veterans' Affairs Committee 
on S. 1235, the Veterans' Benefits Improvement Act of 2005, introduced 
by Senator Craig (R-ID). The intent of S. 1235 is to amend the 
provisions of U.S. Code Title 38 Section 3707(c)(4) to allow the 
Secretary of the Department of Veterans Affairs (VA) to establish the 
annual interest rate adjustment cap under VA's hybrid ARM program. MBA 
fully supports the change proposed though S. 1235 to the VA's Home Loan 
Guaranty Program.
    MBA is a strong advocate of the home financing program offered by 
VA's Loan Guaranty Service. Since 1949, this program has provided an 
important homeownership benefit to those men and women who have served 
their country through their service in the armed forces. The vast 
majority of VA guaranteed loans made each year are made by MBA members. 
MBA members are proud of their involvement in this program.
    Over the past 2 years, with guidance and support from this 
Committee, dramatic improvements have been made to the VA's Home Loan 
Guaranty Program: the guarantee amount has been increased and indexed 
to the conforming loan limit, the guarantee fee for reservists has been 
lowered, and VA guaranteed hybrid adjustable rate mortgage (ARM) 
products have been introduced. These changes, in conjunction with 
processing changes undertaken at VA, have greatly improved the home 
loan benefits available to veterans.
    Today, MBA would like to bring your attention to a technical 
change, incorporated in S. 1235, that is required to VA's authorizing 
statute that will allow it further to improve the delivery of 
affordable home financing to veterans.

             BACKGROUND ON HYBRID ADJUSTABLE RATE MORTGAGES

    Hybrid ARMs are mortgages that have a fixed interest rate for an 
initial period of time, after which the rate adjusts annually based on 
a certain spread over an agreed upon index rate. Typically, hybrid ARMs 
have a three-, five-, seven-, or ten-year fixed period, with the 
interest rate adjusting annually thereafter. These are commonly 
referred to as 3/1, 5/1, 7/1 and 10/1 hybrid ARMs. Due to the fact that 
a hybrid ARM converts to an adjustable rate mortgage after the initial 
fixed interest rate period, lenders can offer these loans with an 
initial interest rate that is lower than the interest rate for a 30-
year fixed rate mortgage. The lower rates available with hybrid ARMs 
enable more families to qualify for home loans.
    Hybrid ARMs typically have three important caps on the amount the 
interest rate to the borrower can change at any given time, regardless 
of the change in the underlying index rate. These interest rate caps 
are the initial rate cap, the annual rate cap thereafter, and the 
lifetime rate cap.

                BACKGROUND ON THE VA HYBRID ARM PROGRAM

    The VA began guaranteeing hybrid ARMs starting October 1, 2003.
    The current authorizing statute for VA's hybrid ARM program allows 
the Secretary to establish the initial rate cap and the lifetime rate 
cap. The statute specifies though, that the annual rate cap cannot 
exceed 1 percent.
    The Department of Veterans Affairs issued Circular Letter 26-04-12 
on December 10, 2004, implementing newly authorized statutory caps as 
outlined above. The circular established VA's regulation that 5/1, 7/1, 
and 10/1 hybrid ARMs can have an initial rate cap of 2 percent and a 
lifetime rate cap of 6 percent.

 THE VA HYBRID ARM ANNUAL CAPS ARE NOT CONSISTENT WITH FHA HYBRID ARM 
                                  CAPS

    On April 7, 2005, Ginnie Mae issued ARM 05-07 announcing that it 
would accommodate the new Federal Housing Administration's (FHA) 5-year 
hybrid product in pools of mortgages with 6 percent caps on the 
lifetime mortgage interest increase and initial and annual caps of 2 
percent. FHA has that product but, due to the current statutory 
constraints on its annual caps, VA does not.
    To obtain the best mortgage interest rate for a borrower, the loan 
must have terms that are acceptable to the secondary mortgage market. 
In the secondary market, loans with similar terms are combined together 
into ``pools.'' The rights to the cash-flows that result from 
homeowners making their monthly payments are then securitized as 
``mortgage-backed securities'' (MBS) and sold to investors. Through 
purchasing these securities, investors are essentially sending funds 
back to originators who can then make additional loans to homebuyers.
    In order to make these pools more attractive to investors, Ginnie 
Mae guarantees the cash-flow to the investors on pools of FHA and VA 
loans. The guarantee lowers the risk of these pools to investors, and 
thus lowers the cost of financing to originators and to homebuyers.
    In order for the VA 5-year hybrid ARM to be offered at the best 
possible mortgage interest rate, the mortgages must be eligible for 
pooling as Ginnie Mae MBS. The 1 percent annual cap limitation on VA 5-
year hybrid ARMs means that they cannot be pooled with FHA 5-year 
hybrid ARMs with 2 percent annual caps.
    The reason for the lack of pooling homogeneity is that the market 
will pay more money for a mortgage with a 2 percent annual cap than for 
a mortgage with a 1 percent annual cap. If the current FHA and VA 5-
year hybrid ARMs, which are identical except for the annual caps, were 
pooled together, the value of the FHA mortgage loans would suffer. The 
result would be higher initial mortgage rates for FHA borrowers with 5-
year hybrid ARMs. Ginnie Mae's program quite sensibly does not allow 
that consequence to occur and the program calls for initial, annual and 
lifetime caps to be the same for all of the mortgages in a pool. The 2 
percent annual cap parameter in Ginnie Mae's program is the level 
acceptable to the market.
    VA borrowers will have to pay higher mortgage rates on their 5-year 
hybrid ARMs until the agency is in a position to set its annual caps to 
allow the most efficient mortgage product to be offered to veterans.
 va secretary should be authorized to establish hybrid arm annual caps
    MBA believes that VA's authorizing statute for the hybrid ARM 
program should be amended to allow the Secretary to determine the 
annual rate adjustment for hybrid ARM products. Such a change will make 
VA's statute consistent with FHA's, which does not prescribe an annual 
rate cap, and will give VA flexibility in adjusting its caps in the 
future, as needed, to remain consistent with FHA.
    This consistency is crucial to the VA Home Loan Guaranty product's 
ability to garner the lower costs of financing for veterans that comes 
with being pooled together with FHA-insured loans.
    Thank you for giving MBA an opportunity to express our views on S. 
1235. We look forward to working with you on the passage of a bill that 
will allow the VA hybrid ARM program to obtain the benefits of economy 
of scale and lower the cost of this type of financing to America's 
veterans.
    We would be happy to furnish any additional information the 
Committee may require.
                                 ______
                                 
    Letter of Support from Mortagage Bankers Association, National 
    Association of Home Builders, National Associatiton of Realtors
                                             June 22, 2005.
Hon. Larry E. Craig,  Chairman,
Committee on Veterans' Affairs,
U.S. Senate,
    Dear Mr. Chairman: The undersigned organizations submit this letter 
in strong support of the provisions of S. 1235, the ``Veterans' 
Benefits Improvement Act of 2005'', introduced by you on June 14, 2005, 
dealing with the hybrid adjustable rate mortgage (ARM) product of the 
Veterans Home Loan Guaranty program.
    Our organizations have consistently been strong advocates of the 
home ownership opportunities offered through the VA Home Loan Guaranty 
Program to those men and women who have served our country through 
their service in the armed forces.
    The VA Hybrid ARM Program, implemented in October 2003, has offered 
veteran families a greater ability to obtain a lower home mortgage 
interest rate. Hybrid ARMs are mortgages that have a fixed interest 
rate for an initial period of time of three, five, seven, or ten years 
with the interest rate adjusting annually, thereafter. These are 
commonly referred to as 3/1, 5/1, 7/1 and 10/1 hybrid ARMs.
    Due to the fact that a hybrid ARM converts to an adjustable rate 
mortgage after the initial fixed rate period, lenders can offer these 
loans with an initial rate that is lower than the interest rate for a 
30-year fixed rate mortgage. The lower rates enable more families to 
qualify for home loans.
    Hybrid Arms have three important interest rate caps-initial, 
annual, and lifetime. The VA Secretary has authority to establish the 
initial and lifetime caps, but the annual cap is limited to 1 percent. 
The Federal Housing Administration (FHA) has a comparable ARM program. 
The difference between the two programs is that the FHA has set its 
annual cap limit at 2 percent. As a result, Ginnie Mae has determined 
that the FHA and VA hybrid ARMs must be securitized in separate pools, 
putting the VA hybrid ARM on an unequal basis.
    Our associations support the provisions in S. 1235 that would allow 
the VA Secretary to determine the annual rate adjustment for VA hybrid 
ARM products. Such flexibility will allow the VA Secretary to ensure 
that hybrid ARMs offered by VA can be pooled with FHA's product. 
Veterans will, therefore, receive more affordable financing due to the 
benefits of economy of scale.
    We appreciate the opportunity to offer our views on this issue.
              
                              Mortgage Bankers Association,
                     National Association of Home Builders,
                          National Association of Realtors.
  

                                  <all>

</pre></body></html>
